<html>
<title> - WORLD AT RISK: A REPORT FROM THE COMMISSION ON THE PREVENTION OF WEAPONS OF MASS DESTRUCTION PROLIFERATION AND TERRORISM</title>
<body><pre>[Senate Hearing 110-1036]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1036
 
                    WORLD AT RISK: A REPORT FROM THE
                    COMMISSION ON THE PREVENTION OF
                      WEAPONS OF MASS DESTRUCTION
                      PROLIFERATION AND TERRORISM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 11, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
45-990                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
CLAIRE McCASKILL, Missouri           PETE V. DOMENICI, New Mexico
JON TESTER, Montana                  JOHN WARNER, Virginia
                                     JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
              Eric P. Andersen, Professional Staff Member
              Aaron M. Firoved, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director for Homeland Security Affairs
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Levin................................................    18
    Senator Warner...............................................    22
    Senator Akaka................................................    25
    Senator Carper...............................................    27
    Senator Coleman..............................................    30
    Senator Nelson (FL)..........................................    33
    Senator Thune................................................    34
Prepared statement:
    Senator Voinovich............................................    43

                               WITNESSES
                      Thursday, December 11, 2008

Hon. Bob Graham, Chairman, and Hon. Jim Talent, Vice Chairman, 
  Commission on the Prevention of Weapons of Mass Destruction 
  Proliferation and Terrorism, accompanied by Hon. Tim Roemer, 
  Commissioner, and Robin Cleveland, Commissioner, Commission on 
  the Prevention of Weapons of Mass Destruction Proliferation and 
  Terrorism......................................................     5

                     Alphabetical List of Witnesses

Cleveland, Robin:
    Testimony....................................................    13
    Prepared statement...........................................    45
Graham, Hon. Bob:
    Testimony....................................................     5
    Prepared statement...........................................    45
Roemer, Hon. Tim:
    Testimony....................................................     9
    Prepared statement...........................................    45
Talent, Hon. Jim:
    Testimony....................................................     7
    Prepared statement...........................................    45

                                APPENDIX

``World at Risk, The Report of the Commission on the Prevention 
  of Weapons of Mass Destruction Proliferation and Terrorism,'' 
  by Bob Graham, Chairman, and Jim Talent, Vice-Chairman.........    58


                    WORLD AT RISK: A REPORT FROM THE
                    COMMISSION ON THE PREVENTION OF
                      WEAPONS OF MASS DESTRUCTION
                      PROLIFERATION AND TERRORISM

                              ----------                              


                      THURSDAY, DECEMBER 11, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Levin, Akaka, Carper, Pryor, 
McCaskill, Collins, Voinovich, Coleman, and Warner.
    Also Present: Senators Nelson, Thune, and Martinez.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. I would 
ask everyone here to take their seats. I thank everyone for 
being here. Good morning.
    Let me say that the importance of today's hearing is summed 
up in the stark opening paragraph of the recently released 
report of the Commission on the Prevention of Weapons of Mass 
Destruction Proliferation and Terrorism.
    It says, ``Unless the world community acts decisively and 
with great urgency, it is more likely than not that a weapon of 
mass destruction will be used in a terrorist attack somewhere 
in the world by the end of 2013.''
    In those 38 words, the Commission compels us to focus our 
minds and steel our resolve to confront the deadly, global 
threat of Islamist terrorists using weapons of mass destruction 
(WMD) against innocent people, and coming as it does such a 
short time after terrorists engaged in conventional urban 
warfare against innocent people in Mumbai, India. The 
Commission's work, warning, and recommendations deserve extra 
serious attention.
    This Commission was established by the Implementing 
Recommendations of the 9/11 Commission Act, which our Committee 
had a primary role in passing in 2007. We are, therefore, 
particularly grateful to the Commission and its leadership for 
its excellent and timely report, and we welcome this morning 
its Chairman and Vice Chairman, our distinguished former 
colleagues, Senators Bob Graham and Jim Talent. Two of its 
commissioners--our former colleague from the House, a member of 
the 9/11 Commission Tim Roemer, and Robin Cleveland whose 
governmental experience is too distinguished and long to list, 
though she remains very youthful, nonetheless--I thank each of 
you, as well as your fellow commissioners and staff members, 
for all the hard work that I know went into this insightful and 
really gripping report.
    I also want to welcome our colleagues from the Senate Armed 
Services Committee whom we have invited to join us at this 
hearing. There is actually a lot of overlap between the 
membership of the two committees. We invited our colleagues to 
join us because confronting and dealing with weapons of mass 
destruction requires the combined efforts of many departments 
and many committees, and none more so than the two that are 
represented here at the table this morning.
    As I mentioned, we hold this hearing in the wake of last 
month's terrorist attacks in Mumbai, which originated in 
Pakistan. That fact comes as no surprise to members of this 
Commission. In fact, your report says clearly, ``Were one to 
map terrorism and weapons of mass destruction today, all roads 
would intersect in Pakistan.'' But you also note quite 
correctly that Pakistan itself has repeatedly been a victim of 
the same Islamist terrorism. Most poignantly, in 2007, former 
Prime Minister Benazir Bhutto was assassinated and 20 
bystanders killed just 2 weeks before the parliamentary 
elections.
    The point here is that no one is safe from Islamist 
extremism and terrorism because these people have no respect 
for national borders, religious identification, or the lives of 
innocent people living within those borders. London, Madrid, 
Bali, Mumbai, Jerusalem, New York, the Pentagon, and the 
Pennsylvania countryside have all suffered grievous losses of 
life at the hands of these terrorists. And as brutal and as 
blood-stained as their course has been, unfortunately this 
Commission's report tells us it can get worse, much worse, 
because the terrorists have dedicated themselves to acquiring 
weapons of mass destruction so they can murder and destroy on a 
scale previously unimagined and unconfronted.
    Just last year, the head of the International Atomic Energy 
Agency (IAEA), Mohamed El Baradei, said this in the case of 
nuclear terrorism, but it applies to all forms of weapons of 
mass destruction: ``For an extremist group, there is no concept 
of deterrence. If they have it, they will use it.''
    In fact, the IAEA handles about 150 cases a year involving 
trafficking of nuclear material. Some of that material reported 
stolen is never recovered, and some of the material recovered 
has never been reported stolen.
    The Commission, whose leadership is before us, also found 
that biological weapons pose a very real threat--in fact, 
according to the Commission, one more likely to materialize 
than other forms of WMD attack for reasons that will be 
explained by the Commission's representatives during their 
testimony. One conclusion I draw from your work is that the 
global proliferation of legitimate biotechnology research and 
expertise, while so much of a benefit in so many ways, also 
creates this problem because that work can be used to create 
weapons of mass bioterror. And much of this research takes 
place in very poorly secured or, in fact, totally unsecured 
facilities.
    So the bottom line is that we need a strong homeland and 
international response now to protect us from the dangers that 
you have described. Your report comes at an opportune moment, 
as a new Administration and a new Congress get ready to take a 
new look at our Nation's homeland security and our global war 
against the terrorists who attacked us on September 11, 2001.
    Your range of recommendations provides a truly bipartisan 
or nonpartisan road map for the urgent action needed to protect 
the American people. And, in fact, I would say that your 
recommendations will constitute a centerpiece of this 
Committee's agenda and perhaps others' in the coming 111th 
Congress. Your report and recommendations, together with the 
work our Committee has done previously on WMD terrorism, the 
questions we both have raised, and the specter of a WMD 
terrorist attack that we have foreseen are not topics that are 
pleasant to discuss, but they are real, and it is our 
responsibility post-September 11, 2001, to discuss them and act 
upon them.
    For me, one of the most chilling sentences in the 9/11 
Commission Report, which Commissioner Roemer helped to draft 
and see through to implementation, was that September 11, 2001, 
occurred because of a failure of imagination, which is to say a 
failure to imagine that people would do to us what they did on 
September 11, 2001. Since then, it has been our urgent 
responsibility to imagine the worst, and, frankly, working 
together with the 9/11 Commission and others, as well as with 
the Administration and Members of the House, this Committee and 
other committees have tried to do exactly that. And I take some 
satisfaction in believing that is certainly a significant part 
of the reason why, thank God, we have not suffered another 
terrorist attack. But we live in very dangerous times, as this 
Commission has documented once again, and these times call on 
us to consider and imagine the worst possibilities and then act 
to both prevent them and prepare to respond to them.
    Again, I thank the members of this Commission for joining 
us today and for your extraordinary work, and at this time I am 
pleased to call upon the Ranking Member, Senator Susan Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you. Thank you, Mr. Chairman.
    The ``World at Risk'' report reinforces the sense of 
urgency that this Committee has felt during its many hearings 
on deadly threats to the American people--threats that include 
terrorists dispersing anthrax spores, detonating a nuclear 
device in a major city, or striking with other weapons of mass 
destruction.
    As the Chairman has indicated, the Commission bluntly 
warned that it is ``more likely than not that a weapon of mass 
destruction will be used in a terrorist attack sometime by the 
end of 2013.'' That warning and the Commission's report are a 
call to action. This Committee has created the Department of 
Homeland Security, reformed our intelligence agencies, 
strengthened the Federal Emergency Management Agency (FEMA), 
increased grants for State and local first responders, and 
enhanced the security of our seaports and our chemical 
facilities. As the Commission observes, however, ``the 
terrorists have been active, too,'' and we must continue our 
efforts. Nuclear proliferation and advances in biotechnology 
have given terrorists new means to carry out their avowed 
intention to commit mass murder.
    The Commission has laid out three main sources of concern: 
The proliferation of nuclear weapons technology, the growing 
threat of biological weapons, and the special challenges 
relating to Pakistan. Having heard chilling testimony on the 
effects of even a suitcase nuclear weapon in a city like New 
York or Washington, I share the Commission's deep concern about 
nuclear developments in places like North Korea, Iran, and 
Pakistan, as well as the challenge of securing nuclear 
materials in the former Soviet bloc.
    The mental images of nuclear blasts and mushroom clouds are 
powerful and frightening. But as the Commission rightly notes, 
the more likely threat is from a biological weapon. In contrast 
to nuclear weapons, there is a lower technological threshold to 
develop and disseminate bio-weapons, access to pathogens is 
more widespread, and pathogens are harder to contain. The 
spread of biotechnology, the difficulty of detecting such 
pathogens, and the terrorists' known interest in bioterrorism 
combine to produce an even greater menace. Bio-weapons are 
appealing to terrorists in part because we are unlikely to 
realize that an attack has occurred before it begins to kill 
many of its victims. In the early stages of an anthrax attack, 
for example, health care providers are likely to believe that 
they are simply seeing an outbreak of flu. That worldwide 
security has lagged behind the growth of this threat is 
sobering. Even within our own country, the Commission found 
that we fail to secure potential biological weapons 
effectively.
    Thousands of individuals in the United States have access 
to dangerous pathogens. Currently there are about 400 research 
facilities and nearly 15,000 individuals in the United States 
authorized to handle the deadly pathogens on what is called the 
``Select Agent List.'' Many other research facilities handle 
less strictly controlled, yet still dangerous, pathogens with 
little or no regulation.
    In addition to the concerns about controls within our own 
country, the global security concerns are daunting. There are 
certain countries, like Syria, that have never adhered to the 
Biological Weapons Convention. There are concerns that other 
countries that signed the treaty may, nevertheless, be 
violating it.
    Beyond these security considerations, there is also more 
that our country should be doing to develop effective 
countermeasures and vaccines.
    As the Chairman has noted, the recent attacks in Mumbai and 
Afghanistan have focused the world's attention on another 
tinderbox identified by the Commission, and that is the nation 
of Pakistan. The confluence of terrorist mindsets, nuclear 
capability, and political instability in Pakistan creates 
enormous challenges. That country's history of poor control 
over its nuclear technology, heightened tensions with its 
nuclear-armed neighbor India, and the existence of terrorist 
training camps and safe havens are a dangerous combination.
    The Commission has offered us 13 key recommendations which 
we will hear more about today. We may differ on some of the 
details of specific recommendations, but I believe that the 
Commission has ably identified the vital threats that our 
country faces and has given us a clearly drawn road map toward 
improved security against terrorist use of weapons of mass 
destruction.
    The Commission has produced exactly the kind of independent 
analysis that Senator Lieberman and I envisioned when we 
included the language creating the WMD Commission as part of 
the 2007 homeland security legislation. I commend the 
commissioners and their staff for their very valuable 
contributions, and I look forward to hearing the testimony this 
morning.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    We will go now to the witnesses. Before we do, I want to 
express a little parochial pride from both Committees here. The 
Executive Director of the Commission is Evelyn Farkas, who used 
to be a staff member for the Senate Armed Services Committee. 
The General Counsel for the Commission is Raj De, who used to 
be a staff member of the Homeland Security Committee. So this 
explains the extraordinary quality of the work product that is 
the subject of our hearing today.
    I gather that the four of you have decided to divide the 
time with approximately 5 minutes each, and, again, I want to 
thank you. All of you have been involved in public service for 
varying lengths of time. This is really a great service to your 
country, and I thank you for it.
    Senator Graham, welcome and let us begin with you.

TESTIMONY OF HON. BOB GRAHAM,\1\ CHAIRMAN, AND HON. JIM TALENT, 
VICE CHAIRMAN, COMMISSION ON THE PREVENTION OF WEAPONS OF MASS 
 DESTRUCTION PROLIFERATION AND TERRORISM; ACCOMPANIED BY HON. 
 TIM ROEMER, COMMISSIONER, AND ROBIN CLEVELAND, COMMISSIONER, 
  COMMISSION ON THE PREVENTION OF WEAPONS OF MASS DESTRUCTION 
                  PROLIFERATION AND TERRORISM

    Senator Graham. Thank you very much, Chairman, and thank 
you, Senator Collins, and the other members of the two 
committees. We appreciate the opportunity--and this is our 
first opportunity--to present our report to an official body, 
these two committees of the U.S. Senate. Mr. Chairman, we have 
provided a written statement for the record. We will each use 
our time to summarize and elaborate on that written report.
---------------------------------------------------------------------------
    \1\ The combined prepared statement of Mr. Graham and Mr. Talent 
appears in the Appendix on page 45.
---------------------------------------------------------------------------
    Chairman Lieberman. Good.
    Senator Graham. You have indicated that our Commission is 
the product of your work. You established this Commission and 
gave us two principal responsibilities: First was to assess the 
current governmental policies to prevent the proliferation of 
weapons of mass destruction; and, second, to make 
recommendations as to how we can enhance our national and 
global security. This report is the result of a nine-member--I 
would not use the word ``bipartisan''--I would say 
``nonpartisan'' Commission, the membership of which was 
selected by the leaders of the Senate and the House. Our report 
is a unanimous recommendation with the full support of all of 
our nine members.
    This report was developed first by putting together staff--
and I appreciate your recognition of two of our very able staff 
members, but also some 20 or more others coming from a wide 
range of backgrounds. Scientific, law enforcement, military, 
intelligence were all part of the capability that supported 
this effort.
    Over the duration of the Commission's work, which has been 
approximately 6 months, we interviewed over 250 individuals--
academics, scientists, intelligence, military, political--both 
in the United States and abroad. The opinions of that broad 
array of individuals was very influential on the findings and 
recommendations that we bring to you today.
    We held eight major Commission meetings, including one 
public hearing, and I would like to recognize, if I could, two 
people who are with us today who were witnesses at that public 
hearing that was held on September 10, 2008, in New York: Carie 
Lemack, who many of us know from her great work over many years 
representing the families of September 11, 2001; and Matt Bunn, 
of the Harvard Kennedy School of Government, who was one of the 
leading experts on nuclear proliferation and has just completed 
this very thoughtful annual report on the status of preventing 
nuclear terrorism.
    We also augmented those interviews and hearings with 
travel. We visited the Sandia National Laboratories in 
Albuquerque to learn more about our state of nuclear 
preparation and the great support which Sandia gives to the 
International Atomic Energy Agency. It is their principal 
reservoir of scientific knowledge on nuclear issues, and it is 
regularly called upon to assist nations around the world on 
these issues.
    We also visited the United Kingdom. We visited Vienna, the 
home of the International Atomic Energy Agency, and Russia. We 
were going to visit Pakistan. We had flown from Washington to 
Kuwait and were awaiting our flight to Islamabad, when we 
received the message that the Marriott Hotel in which we were 
going to spend the night had just been bombed. That made this 
effort a highly personal one for the members of the Commission, 
and it impressed upon us the seriousness of our responsibility.
    Mr. Chairman, just briefly, I would like to give the bad 
news of our findings, and then my colleagues will give some of 
the good news of the ways in which we can aggressively attack 
and reduce the probabilities of attack that we find under the 
current circumstances.
    Our first finding was that the risks that we are facing, in 
spite of all that we have done in the Congress and in the 
Executive Branch, and at State and local government, our margin 
of safety is declining, that we are becoming more vulnerable. 
You might ask why. Well, I analogize it to a canoeist who is 
canoeing upstream against a powerful current. You may be 
canoeing as skillfully and energetically as you can, but you 
are losing ground because the resistance that you are facing is 
even greater. In many ways, that describes the circumstances 
which we are in. Our adversaries are growing more nimble and 
effective, and the scene of scientific development, 
particularly in the biological area, is making the challenge 
greater.
    Second, as the Chairman and the Ranking Member have both 
stated, the Commission finds that it is more likely than not 
that between now and the end of 2013, a weapon of mass 
destruction will be used somewhere on the globe. Now, that 
statement has received some pushback as being too alarmist. I 
might say that the same week we released this report, the 
Director of National Intelligence (DNI), Admiral McConnell, 
spoke to a group of new congressmen at the Kennedy School and 
made almost exactly the same assessment based on his agency's 
perspective of what the threat of the use of a weapon of mass 
destruction might be. So, as grim as it may be, I believe it is 
a credible assessment.
    Third, we found that it was more likely that the attack 
would be by biological weapons rather than by a nuclear weapon 
for the reasons that the Chairman and the Ranking Member have 
already mentioned, and which particularly one of our 
commissioners, Robin Cleveland, will elaborate upon.
    We also found that in terms of intent, the terrorists are 
just as intent to use weapons of mass destruction today as they 
were almost 20 years ago when Osama bin Laden first attempted 
to acquire nuclear material while still living in the Sudan. 
That effort to obtain and use has been described by bin Laden 
as a ``religious duty'' of al-Qaeda.
    So, Mr. Chairman and Members of the Committee, these are 
our blunt findings. We have stated it several places in our 
report that we think a key to winning this battle is for the 
U.S. Government to be open with its people, to understand both 
the reality of the situation and the steps that can be taken to 
change that reality. We have attempted to carry out that 
honesty and directness with the American people and with this 
Committee today.
    Mr. Chairman, thank you very much. I would like, if I 
could, to recognize the very distinguished Vice Chairman and 
colleague, Senator Jim Talent. We also have with us today two 
other Commission members--former Congressman Tim Roemer and Ms. 
Robin Cleveland.
    Chairman Lieberman. Senator Talent, welcome. Good to see 
you again.

 TESTIMONY OF HON. JIM TALENT,\1\ VICE CHAIRMAN, COMMISSION ON 
THE PREVENTION OF WEAPONS OF MASS DESTRUCTION PROLIFERATION AND 
                           TERRORISM

    Senator Talent. Thank you, Mr. Chairman and Senator 
Collins. I am going to embarrass Senator Graham just for a 
second by saying as difficult as this was--and I did not think 
anything would be more difficult, for example, than working on 
a Senate Committee and passing complicated legislation; you all 
know how difficult that is. This was hard, getting these 
strong-minded people to agree on a unanimous basis to a report 
that actually said something, and it would not have happened if 
not for the leadership of the gentleman to my right. And many 
of you know how good he is, and he sure proved it here.
---------------------------------------------------------------------------
    \1\ The combined prepared statement of Mr. Graham and Mr. Talent 
appears in the Appendix on page 45.
---------------------------------------------------------------------------
    We have two witnesses after me who are going to offer some 
comments in some very important areas, so I am going to make 
one brief observation about the threat, and then I have starred 
about five areas I am going to be very brief with.
    It occurred to me in the course of these deliberations that 
there are a lot of people, and I think even people in this room 
who focus on this a lot, who assume that we cannot really 
eventually lose in this conflict with the terrorists because 
they are relatively small, transnational conspiracies that do 
not even have a national base. But in reflecting on this, I 
think we tend to underestimate how formidable they are. The 
nature of the world today, the interdependency, globalization, 
and information technology, all of that gives them advantages 
in warfare and tends to disadvantage traditional First World 
powers like the United States. And they see this. I think it is 
one of the reasons they are so dangerous. They understand the 
world is a matrix of systems, really--financial, 
communications, transportation--that we need and rely on, and 
they do not need very much, and that are very easy for them to 
attack and very hard for us to defend.
    Now, one of the capabilities I think they would like to 
enhance is their weaponry. They have asymmetric weapons which 
are very powerful, but not quite as powerful enough as they 
need to really knock us out. And that is the context in which I 
think we ought to look at these weapons of mass destruction. If 
they are capable of increasing their capabilities by getting 
these weapons, and particularly--and this is one of the reasons 
we focus on biological attacks--if they get enough of the 
weapon material that they can repeat the attack at will, what 
Dick Danzig calls ``reloading the bio-weapon,'' so they can hit 
an American city and then hit them again 3 weeks later, we can 
lose this war. I think they get that, and that is one of the 
reasons for our threat evaluation, one of the reasons we have a 
5-year limit in it. We think that, and we want everybody to 
understand, this is not just important, it is urgent. You know 
how the urgent always crowds out the important. This is urgent 
and important.
    Five comments about the recommendations, and they are 
organized in four areas: Biological, nuclear, government 
reform, and then the government's role with the citizen.
    First, we think a lot of the big problem in the biological 
sector stems from the different cultural approach toward this 
issue as opposed to nuclear. The nuclear age began with the 
explosion of a nuclear weapon, so everybody in nuclear science 
got it right away. This science can be abused and used for 
destructive purposes.
    I think the assumption within the biological research 
community, quite understandably, is that this is benign 
research, and that is one of the reasons why I think it would 
be so good for you all to focus on this early because the very 
act of passing legislation--and these are important subjects; 
Ms. Cleveland is going to talk about this, changing the 
regulatory apparatus. But the very act of passing that 
legislation, I think, will raise the visibility of the issue 
and help with the underlying cultural change that we need. This 
is a case that Congress is a messenger--just as it was with the 
intelligence area.
    Point two, Pakistan. We focus on Pakistan. I think, Mr. 
Chairman, Senator Collins, you guys understand. Everything that 
causes us to worry about both terrorism and proliferation in 
the context of weapons of mass destruction is centered in 
Pakistan. That is just unfortunate. It is the perfect storm. 
They are a substantial nuclear power. They are, not willingly, 
but they are a terrorist safe haven. They are a recruiting 
ground for terrorists, as you know if you have ever talked to 
the British. They have an unstable government, which, 
therefore, has to focus on its stability rather than on the 
things we would like to see them focusing on. And they have a 
competition with India which is raising the specter of a 
traditional nation-state kind of nuclear stand-off, which is 
very dangerous and complicates everything else.
    So we recommend continuing a lot of what we have been 
doing, eliminating the safe haven, safeguarding the material, 
and in addition, using Pakistan as a place where there is first 
a really intense effort at using the tools of soft power. And 
this means we have to have the tools of soft power, which means 
we think that the State Department and the civilian agencies of 
foreign policy need to go through the kind of self-analysis, 
cultural change, and integration that the military did 
beginning 40 or 50 years ago and completed with the Goldwater-
Nichols Act, and that the intelligence agencies have done since 
you all passed the legislation. That is point two.
    With regard to the nuclear regime, we have a lot of 
recommendations there, and I think the basic problem is the 
interest in things nuclear around the world. A lot of that 
interest is benign in nuclear power, but it is so great that it 
is straining the international regime for inspecting and 
controlling it. And so the IAEA needs more resources and more 
authority.
    We have a recommendation about shifting the burden of proof 
so that nations--I mean, internationally we all agree that, 
where necessary, where there is a good purpose for it, nations 
stop acting like the object of depositions, trying to hide 
everything they can unless you ask exactly the right question. 
And, actually, we shift the burden of proof so they have to be 
more forthcoming in trying to prove that they are in 
compliance.
    Then, finally, I will close so we can get to Mr. Roemer. 
One of the things that keeps popping up in our recommendations 
and that we kept noticing was the importance of human capital 
and the dangers we have in that area. The Chairman talked about 
Sandia in New Mexico. They told us down at Sandia Laboratories 
that if we do not do something, we are going to fall below the 
critical mass that we need in terms of scientific expertise to 
make this international nuclear regime work. It turns out the 
IAEA gets their expertise from us, and largely down in Sandia, 
and the cohort of people who understand this science and have 
made it work all these years are all retiring within the next 
few years. So intentional and deliberate efforts need to be 
made at increasing our human capital in that area. That is 
another area this Committee or the ones with appropriate 
jurisdiction probably could take on an effort early.
    I think I am going to end it with that, Mr. Chairman, and I 
know that it is the question section that is probably the most 
beneficial, but I appreciate the chance to be with you today.
    Chairman Lieberman. Thanks very much, Senator Talent. That 
was excellent.
    Congressman Roemer, welcome back. Thanks for your uniquely 
extraordinary service post-September 11, 2001.

 TESTIMONY OF HON. TIM ROEMER, COMMISSIONER, COMMISSION ON THE 
  PREVENTION OF WEAPONS OF MASS DESTRUCTION PROLIFERATION AND 
                           TERRORISM

    Mr. Roemer. Thank you, Senator, and thank you for the honor 
to be before both of these committees. It is always a privilege 
to be back in the U.S. Senate, where I had my first job as a 
Senate staff member for Senator DeConcini back in the 1980s, 
and to see all these able and capable staffers up on the dais 
as well, too.
    Senator thank you for combining both committees here. I 
would like to start with some good news and then some of the 
bad news and the trends. The good news is we have people like 
Senator Graham and Senator Talent who can work in a bipartisan 
way to put forward 13 different recommendations and make our 
country safer from a very dangerous and urgent threat.
    More good news is that when the 9/11 Commission made 41 
different recommendations to begin to try to transform our 
government from a Cold War structure to a new 21st Century hot 
war, proactive government, the Congress responded, for the most 
part. With your leadership, Senator Lieberman, Senator Collins, 
and everybody on this Committee, 39 of the 41 recommendations 
were passed into law to help transform our government to these 
new 21st Century threats from al-Qaeda, from asymmetrical 
threats to biological and weapons of mass destruction types of 
threats. That is the good news.
    We now come out with a report, ``World at Risk,'' \1\ that 
talks about trend lines that are very dangerous to the United 
States, the threat is growing and our margins of safety are 
shrinking, and shrinking very quickly, despite good action by 
Congress and the Executive Branch.
---------------------------------------------------------------------------
    \1\ The report, titled ``World at Risk,'' appears in the Appendix 
on page 58.
---------------------------------------------------------------------------
    Osama bin Laden, months after the attacks on September 11, 
2001, said it was not 19 Arab armies or 19 Arab states that 
attacked the United States on September 11, 2001. It was 19 
post-graduate students who formed cells, penetrated our 
country, and killed over 3,000 people.
    Now we are starting to hear that bin Laden has been saying 
for a long time that it is a religious obligation to create 
Hiroshima-type activity on the United States with some kind of 
nuclear or biological device. Your religious obligation to 
attack the United States. And when we hear from biological 
experts that it is not very likely that a terrorist is going to 
become a biologist, but it is likely a biologist might become a 
terrorist, we are maybe a resume or two away from al-Qaeda 
having that biological capability of being able to potentially 
weaponize and disseminate very dangerous material against the 
United States or our allies. The threat continues to grow, and 
grow quickly.
    We tried to capture the 9/11 Commission's phrase of ``It 
was a failure of imagination.'' We cannot have ``World at 
Risk'' be a failure of anticipation. We have anticipated what 
is likely to happen over the next 5 or 6 years. It would be a 
travesty if we did not take these steps and better protect the 
United States.
    Senator Talent and Senator Graham so capably and ably led 
this Commission in making these recommendations. We were on our 
way to Pakistan where so many of the roads to terrorism all 
meet, where the cauldron is boiling today: A fragile government 
of one of our allies; al-Qaeda and the Taliban metastasizing in 
the federally administered tribal areas (FATA); Pakistan 
continuing to build new nuclear capabilities; nuclear materials 
that we are worried may not be secured well enough in Pakistan; 
a Mumbai attack just a week ago that creates heightened tension 
between India and Pakistan; and our own intelligence people, 
General Michael Hayden and Ambassador Ryan Crocker saying the 
most likely threat to the U.S. homeland comes directly 
radiating out of the federally administered tribal areas of 
Pakistan.
    We centered, we really concentrated, and we urgently called 
on you to do more with respect to Pakistan. We have suggested 
five different steps with regard to Pakistan:
    First, that we continue to be very aggressive in going into 
the FATA and using our special operations, military, and 
unmanned aerial vehicles (UAVs) to disrupt al-Qaeda and the 
Taliban and not create safe havens in that area.
    Second, that we increase our smart power. Secretary Gates 
talks so eloquently in a soon-to-be published article in 
Foreign Affairs in January 2009 that we are out of balance 
today, that we do not have the balance we need between our 
military, our State Department, and our U.S. Agency for 
International Development (USAID) to have non-kinetic forces, 
our foreign service, our diplomats, to create an economic surge 
in this area, for education and economic opportunities for 
Pakistani citizens.
    Third, that we try to make sure that we look at ways to 
address the etiology of radical Islam and jihadists and try to 
dry this up and compete with it. After all, when we were headed 
to our hotel in Islamabad and 55 people were killed in 
Islamabad, they were Muslim. They were maids, they were cab 
drivers, they were people that worked at this hotel. This was 
not an attack on the United States. This was an attack on 
Pakistan, an attack on Muslims, an attack by al-Qaeda on 
Pakistan and their own people. And that is the way we need to 
portray this war--not a clash of civilizations, but al-Qaeda 
attacking its own citizens without any plan on jobs, on health 
care, in addressing some of the grievances in that part of the 
world.
    Fourth, one of the key areas I think that we had great 
discussion on was what to do regionally and international in 
this area when we see Kashmir continue to pop up as one of the 
key problems. Do we send an envoy into this area? Is this 
international engagement between China, the United States, 
Pakistan, India, and Russia? How do we bring the right people 
together to resolve an area where there could be a 
thermonuclear confrontation sometime in the future--as there 
already have been threats over the last 10 or 15 years. This is 
an urgent area of concern for Congress and the Executive 
Branch.
    Fifth, I would like to address for just a moment, the 
government, our own government--not the Pakistani government 
but our government. I mentioned that 39 of the 41 
recommendations were passed into law. You took action. You 
insisted on Executive Branch reform and the creation of a new 
DNI that is working pretty well. You created a new Homeland 
Security Department that is not working so well. But you did 
not pass reforms to look at yourselves, to reform Congress. 
Article I, Section 1 of our Constitution states that the 
Legislative Branch is one of the key powers of accountability 
and oversight to our people. And to concentrate that oversight 
capability and that accountability in our Congress, directly 
elected by our people, so that we know what is going on in our 
intelligence community and the secret community, so that when 
the call is there and recommendations are put forward, it does 
not take 3 years to pass legislation, we recommend an 
Intelligence Subcommittee on the Appropriations Committee that 
can be the power of the purse. And the Speaker of the House has 
taken an important step creating a Select Intelligence 
Oversight Panel (SIOP), a panel on the House side on the 
Appropriations Committee to oversee this. I think the Senate 
has an opportunity to act on this.
    We have also recommended, Senators, that we do more on 
homeland security to focus that oversight and that 
accountability so that the new Secretary of Homeland Security, 
unlike Mr. Chertoff, does not have to come up here and report 
to 88 different committees and subcommittees between the Senate 
and the House; and that when you come up with good legislation 
to better protect the United States, it does not go to 88 
different committees and subcommittees to try to pass 
legislation through our bodies. So that is a key reorganization 
that we recommend for the U.S. Congress.
    We also say in the intelligence community that you 
recommended that there might be an office that be created to 
oversee WMD. We slightly disagree with that. We say it should 
be a person. It should not be confirmed necessarily by the 
Senate. It should be appointed with three options by the 
President: It could be a deputy in the National Security 
Council, it could be run out of the Vice President's office, or 
it could be some other person or entity outside of the White 
House that would be responsible for WMD every day.
    We also recommend combining the Homeland Security Council 
and the National Security Council to better streamline 
accountability in the White House and not have redundancies 
created there. The way you do that is important, and we can 
talk more about that in the question and answer period.
    Finally, in terms of responsibilities, we have talked about 
responsibilities for the President in terms of this new 
position that is created. We have talked about congressional 
responsibilities. We really think citizens can play an 
important role in this effort. We think that can be part of a 
checklist, that we work with the Homeland Security Department 
and our local law enforcement communities to create the kind of 
checklists and participation from our citizenry that really 
makes them part of helping in a vigilant way to help protect 
this country, with information, with access to the right kind 
of family plan should something happen, and with better 
information than color codes and duct tape and plastic sheets. 
We find people really want good information, even if it is 
dangerous or a threat is out there.
    We are very pleased, I think, with these 13 
recommendations. We hope the Congress will act on these, and we 
look forward to working with you and implementing these and not 
letting these go by the wayside.
    Thank you so much for the time.
    Chairman Lieberman. Thank you, Congressman Roemer. As you 
know, this Committee tried to convince the Congress to adopt 
the recommendation to reform congressional oversight, but that 
was not one on which we succeeded. But your Commission report 
calls us again to go back into that battle and make some good 
arguments for it, and I promise you we will try.
    Mr. Roemer. I hope you will keep fighting, Senator.
    Chairman Lieberman. Thank you.
    Ms. Cleveland, thanks for being here.
    Senator Talent. Mr. Chairman, I should say that Senator 
Graham and I were very pleased to allow Mr. Roemer to address 
this subject. [Laughter.]
    Mr. Roemer. That is why I was invited.
    Chairman Lieberman. Yes, very gracious of you. Thank you.
    Ms. Cleveland, please proceed.

 TESTIMONY OF ROBIN CLEVELAND, COMMISSIONER, COMMISSION ON THE 
  PREVENTION OF WEAPONS OF MASS DESTRUCTION PROLIFERATION AND 
                           TERRORISM

    Ms. Cleveland. I appreciate being here. I now know how Tom 
Brokaw felt when he appeared before our Commission when he said 
that he was used to being on the other side of the table, and 
so this is a new experience for me.
    I would like to start with his testimony before the 
Commission because I think we all felt it was very compelling. 
He received an anthrax letter, as we know, and in the weeks 
after September 11, 2001, described the harrowing experience of 
trying to identify what was happening to his two assistants. 
One of them broke out in terrible black lesions across her 
body, and with all the resources that he had available to him 
in terms of access to people, access to money, for 3 weeks he 
kept getting wrong diagnoses. He finally sent a biopsy to Fort 
Detrick, Maryland, and even there he was told that his 
assistant suffered from a brown recluse spider bite. And so it 
speaks powerfully, I think, to the lessons that we learned 
across the whole biological area in our inquiry.
    There were any number of problems, including the fact that 
there were multiple entities involved in the supervision of 
biological research and regulation, including the Department of 
Agriculture (USDA), Department of Health and Human Services 
(HHS), Department of Homeland Security (DHS), Department of 
Defense, elements of the intelligence community, Food and Drug 
Administration (FDA), and Centers for Disease Control and 
Prevention (CDC). And there are constant turf fights, something 
that you all are familiar with, but I was surprised to learn 
that CDC and FDA currently are going over who is responsible 
for regulating the technical procedures--not the equipment--for 
investigating bioterrorism incidents and for determining the 
cause of outbreaks of disease. There are not community-wide 
standards in the definition of what constitutes a biosecurity 
level 3 (BSL-3) lab versus a BSL-4 lab--and if you do not have 
common standards in terms of how you operate, you are likely to 
end up with gaps and weaknesses in your security system. And it 
is not clear who should be setting those standards. Should it 
be the Department of Army because they are host for the U.S. 
Army Medical Research Institute of Infectious Diseases 
(USAMRIID) at Fort Detrick? Or should it be the Federal Bureau 
of Investigations (FBI), which has far more experience in terms 
of security procedures?
    So you have too many agencies, too many turf fights, and 
unclear oversight entities. There is no single point where you 
can go and determine who is the right authority for oversight.
    So 7 years later, we struggled with: What is at the heart 
of the problem? Why hasn't there been a clearer and more 
compelling structure set up to oversee the biological area? 
And, in part, it seems to stem from the fact that the need to 
protect the country has to be balanced against the 
understandable goal of the private sector and academics for 
freedom of research, which has certainly produced extraordinary 
accomplishments in science and medical miracles. So we 
struggled with trying to strike the right balance between 
freedom of research and protecting the country, which led us to 
several key recommendations.
    We think that it is past time for HHS to lead an 
interagency review of the Select Agent Program. The Congress in 
its wisdom in 2002 added agents to that list, but there has 
been no subject review of whether or not the list is 
sufficient, whether or not the procedures and reporting 
mechanisms in place are doing their job.
    We think the Department of Homeland Security should lead a 
national effort to develop a strategy on microbial forensics. 
The fact that it took 7 years to identify Bruce Ivins as the 
alleged culprit in the anthrax case, I think, points clearly to 
the fact that we do not have an adequate capability in 
microbial forensics and do not have a pathogen library.
    We think that HHS and DHS together need to step up efforts 
to improve management and security of high-containment labs and 
consider how to manage pathogen research at lower-level 
facilities. And what that really means is it is key for 
Congress to be engaged. I think that is probably one of our 
most compelling recommendations.
    The only way that we are going to improve oversight, 
regulation, and security and safety when it comes to the 
biological area is for the life sciences community to step up 
to their responsibility and to promote a culture of security 
awareness. And I do not think that is going to happen on its 
own. I think it is key for Congress to hold hearings and reach 
out to the life science community to develop a code of conduct, 
hopefully voluntary, but in the absence of a voluntary code, 
something that the Congress can prescribe.
    Finally, notwithstanding the fact that we are making 
efforts in terms of improving security and safety in our labs, 
I think the Commission concluded that we cannot do this alone; 
that we could have the best procedures in place at our labs, 
but with the emerging markets in India, Malaysia, Brazil, and 
Pakistan, medical science is advancing across the globe. And so 
we urge a convening by the State Department of a biotechnology 
powers conference, again, with a view to trying to establish 
some kind of international norm or code of conduct when it 
comes to security and safety.
    And, finally, when it comes to international standards, the 
Commission did not endorse a revival of the protocol associated 
with the 1972 Biological Weapons Convention (BWC). We do think 
that the BWC itself is essential and is a key establisher of 
international norms in terms of transfer of biological weapons, 
but we do not think that the effort to revive the protocol 
would make sense. We heard from multiple witnesses that the 
dual-use nature of much of this material complicates 
verification and so would not be a wise course of action.
    Finally, the Administration, we concluded, has done a good 
job investing on the first priority of consequence management 
and taken that important step. But 7 years later, I think we 
all felt it was time to step up the effort in terms of 
preventing as opposed to protecting against the transfer of 
biological agents to hands of people that should not have them. 
Thank you.
    Chairman Lieberman. Thank you all. You have laid out the 
essence of your report and made some recommendations.
    We will now do 6-minute rounds because we have a number of 
people here. Senator Collins and I will start, and then we will 
ask Senator Levin and Senator Warner from the leadership of the 
Armed Services Committee. And then we will go on our 
traditional early-bird rule.
    Much of your work jumps out at me, but the major 
conclusions that draw our attention are that it is more likely 
than not that there will be a WMD terrorist attack somewhere in 
the world by 2013, 5 years from now; and it is more likely than 
not that the attack will be biological. And both of those are 
riveting, first, because of the time frame; and, second, 
because I think the instinct would be that our minds have been 
focused more on a nuclear terrorist attack than a biological 
attack. And you have explained why you have reached those 
conclusions and also offered some very good suggestions about 
what we have to do to prevent such an attack--remember, this 
Commission is called the ``Commission on the Prevention.'' We 
have spent some time on this Committee and many other places in 
our government on response, asking how we respond to a nuclear, 
biological, chemical, or radiological attack. But, obviously, 
the more critical question is how do we prevent these attacks 
from occurring at all.
    Let me begin by asking you by what standard did you arrive 
at the 2013 date, that is to say, that within 5 years it is 
more likely than not that there will be an attack. Senator 
Graham?
    Senator Graham. Obviously, that is a judgment.
    Chairman Lieberman. Right.
    Senator Graham. It was a judgment reached in part by the 
wide net that we put out to people that we thought were capable 
of having a sound judgment on that. But the events are what is 
driving that schedule. Here are some of the things that are 
happening.
    There is a nuclear race underway in South Asia today among 
China, India, and Pakistan. In the not too distant future, it 
is quite probable that the third, fourth, and fifth largest 
nuclear arsenals in the world will not be held by places like 
the United Kingdom or France, but will be held by those three 
South Asian states, significantly increasing the tension in the 
region and the possibility of proliferation from one of those 
sites.
    Chairman Lieberman. In other words, all of these are 
nuclear powers now, but are expanding their inventory of 
nuclear weapons much more rapidly than the other countries.
    Senator Graham. And, second, we are in what has been called 
the ``nuclear renaissance''; after Chernobyl, there was a long 
period where there was virtually no nuclear activity in the 
world, particularly in the United States. Now, the world is 
becoming reinterested, re-engaged, and the global climate, 
which I know is an issue that you are going to be dealing with, 
is a factor. Energy is a factor. But it also has the risk of 
having this technology and this base of science in the hands of 
states that may not have the capability of appropriately 
securing it from proliferators. So that is another risk.
    But overwhelming those two is the biological risk, dramatic 
increases in number of sites, number of scientists, the ease 
with which this material can be converted from a benign, 
healthy, positive pathogen into a lethal pathogen. And the 
possibility of creating new pathogens that are more difficult 
to suppress than anthrax, which is the pathogen of choice 
today. In a laboratory somewhere in the world, the influenza 
strain, which in 1918 killed 40 million people and which has 
been extinct for most of the intervening 90 years, has now been 
re-created. If that were to get out, there is no defense. And 
the death toll of the last century might just be a shadowing of 
what it could be in the 21st Century.
    Chairman Lieberman. Is part of the reason why the 
Commission has decided that a biological attack is more likely 
than the other forms of weapons of mass destruction, that it is 
both less expensive to convert a biological pathogen into a 
weapon; and, second, it is easier to conceal it and, therefore, 
to deliver it, for instance, by bringing it into the United 
States? Are both of those factors?
    Senator Graham. Both of those are factors, and Richard 
Danzig, whose name was used earlier, has said that the only 
thing that protects us now is a thin wall of the ignorance of 
our adversary. And as our adversary, as the scientist becomes 
the terrorist, as they gain access to this growing number of 
people who are capable of converting good into evil, that makes 
us more vulnerable.
    Senator Talent. Mr. Chairman, could I have just 30 seconds?
    Chairman Lieberman. Go right ahead.
    Senator Talent. I have put it this way: Two and two and two 
and two make eight. We know they want to get it--we know that--
and that they have tried to get it.
    Chairman Lieberman. Right.
    Senator Talent. We know if they get it, they cannot be 
deterred, or it is very unlikely we can deter them from using 
it. We know it is within their organizational sophistication. 
They do not have to move to a new level of organizational 
sophistication to get either nuclear or biological material. 
And we know that their opportunities to get the material are 
growing.
    So you put all that together, and it is the conclusion of 
all these people we talked to and it is our gut instinct that 
this is a near-term risk, which is, I think, very key. It is 
not something that is in the intermediate or long term. It is 
near term. They are close to it and, hence, the 5-year period.
    Now, we do not have intelligence already that says 2013--
and I do not think that was accidental--shortly after we said 
this Admiral McConnell basically confirmed it to the Kennedy 
School.
    Chairman Lieberman. I appreciate what you have said, and if 
we combine it with what we saw in Mumbai a few weeks ago, which 
seemed to me to be a new chapter in terrorist activity, 
creating what one commentator, Walid Phares, has called ``urban 
jihad,'' and contemplate that kind of terrorist activity in a 
city not just being the use of firearms and explosives but 
biological weapons, you can imagine with horror the 
multiplication of the panic, which was clearly a major aim of 
the terrorists in Mumbai.
    Senator Talent. Biological material is easier to weaponize 
and easier to reload.
    Chairman Lieberman. Right. Thank you. My time is up. 
Senator Collins.
    Senator Collins. Thank you. Senator Talent, let me pick up 
on this discussion on biological weapons. Your report raises a 
lot of concerns about the lax or absent regulation of 
biological labs, and I was astounded in reading your report 
that there were 15,000 employees working at these labs in our 
country with, in some cases, very light regulation.
    When we passed a chemical plant security bill 2 years ago, 
we required a risk assessment of virtually all chemical plants 
in this country, and then DHS was in charge of reviewing these 
risk assessments and coming up with a risk-based security plan 
working with the private sector. So there was a risk-based 
system of regulation.
    Do you think that is the kind of regulatory scheme that we 
should be looking at imposing on these biological labs?
    Senator Talent. I am going to defer, with your permission, 
Senator, to Robin Cleveland because she has really studied 
that. I would just say that I agree with your concern, and the 
15,000 employees, as I understand it, are just the ones working 
in the labs that we regulate, which are the ones that get 
Federal funds. If you do not get Federal funds, you are not 
regulated at all. If you do, you are regulated by three 
different agencies, at least three, including USDA and CDC, so 
it is a major issue.
    I would just say I think that is one way we could go. 
Personally, I would not want to individualize too much because 
I think you can use a categorical approach, but certainly some 
kind of regulation based on an intelligent assessment of the 
risk would make a lot of sense.
    Senator Collins. Ms. Cleveland, I would like you to address 
that, but I also want you to address the issue of who the 
regulator should be, because that is a major issue.
    Ms. Cleveland. It is.
    Senator Collins. When you look at the current system, the 
CDC is regulating certain labs that deal with human pathogens, 
and then you have the Department of Agriculture regulating 
those dealing with plant or animal pathogens. The fact is that 
while both are very concerned about health and safety, neither 
the CDC nor the Department of Agriculture brings a homeland 
security perspective to the regulations. So that, too, is of 
great concern, and it also leads to inconsistent levels of 
regulation.
    Ms. Cleveland. You have identified the problem that we 
tackled. I think there is a third area, which is that there are 
pathogens and agents that fall in between that both CDC and the 
Department of Agriculture have concerns about because they jump 
species. They go from animals to humans. So you have an 
emerging area where no agency essentially is in charge.
    I think I would agree that a risk-based approach is the 
right approach. I think the key is going to be to engage with 
Homeland Security and in turn with the life sciences community, 
because none of this is going to happen unless there is 
cooperation on that front. And I agree with Senator Talent that 
the risk-based approach is one option, but the key is having 
one point of contact and one set of security rules, safety 
rules, and a governing institution, in part so that folks 
working in the labs know who to go to, to get guidance in terms 
of what the standards for research should be.
    Senator Collins. You also mentioned the possibility of a 
voluntary code, and I have a lot of reservations about that 
approach based on what we saw with chemical plant security. 
Sure, you have some great companies who adopt excellent 
practices, but then you have the outliers who do not. And it is 
not really fair to rely on a voluntary system which may result 
in competitive disadvantages as well. So this is an area where 
I personally believe that we need to have a mandatory regime, 
but one that works, where the Federal Government works with the 
private labs as well as with the government-funded labs, to 
come up with a very workable regulatory scheme. And I continue 
to think also that when you have agencies involved that have 
very different missions and whose missions are not homeland 
security, you are not going to have the regulation have as its 
mission the homeland security perspective. So this is an area 
that I hope our Committee will look at.
    In my time that is remaining, let me also ask for your 
advice. It is not just regulating the control of the pathogens 
or the security of the site. It is also vetting individuals who 
work there as your term of a ``biologist becoming a terrorist'' 
suggests and as the Bruce Ivins case is a clarion call for 
action, where there were all these warning signs, and yet he 
maintained his access to these pathogens.
    So what are your recommendations in that area?
    Ms. Cleveland. Again, I think that the most--can I comment 
just first on the voluntary code. I think the reason the 
Commission endorsed the concept of some kind of voluntary code 
is because that has not been tried yet, and I think it is 
important to engage in good faith with the life sciences 
community, because I think there are many willing and 
interested parties. There has been some extraordinarily good 
work at the University of Maryland on what a code of conduct 
might look like, and I think it is an important first step in 
terms of, as I said, engaging in good faith with the life 
sciences community. But I think inevitably there will need to 
be some kind of mandatory rules and regulations. The key then 
will be, of course, trying to figure out how to engage our 
global partners to assure that they, too, support those 
standards because we do not want to disadvantage the U.S. 
medical or life sciences communities.
    On the question of vetting and procedures, I think first 
and foremost an entity has to be established to be in charge. I 
do not know if it should be the FBI, that they should be 
responsible for all vetting, and then follow-up investigations, 
whether or not in the case of Fort Detrick it was the Army that 
was responsible for supervision of security procedures. Just as 
there is when you apply for a Federal Government job, there is 
one entity now responsible for background investigations and 
follow-up. I think the Commission felt strongly that there 
ought to be one entity in charge of supervision of this area 
and to start at that point.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Senator Levin, we welcome you in your dual-hatted capacity, 
as a senior Member of this Committee and Chairman of the Senate 
Armed Services Committee.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Chairman Lieberman and Senator 
Collins. Thank you for holding this hearing. Thanks for 
inviting the Members of the Armed Services Committee, who are 
not dual-hatted, to join us here this morning. We were planning 
on having our own hearing, but given the time constraints and 
the fact that we have so many members on both committees, we 
thought this would be a more efficient way to have the 
Commission before us, for us to welcome our former colleagues, 
Senator Graham and Senator Talent, and other members of the 
Commission for the tremendous job that you have done, to thank 
you and thank your staff, because we know how important staff 
members are in all of this work.
    Let me start by raising the question of our relationship 
with Russia, and I think that relationship is going to require 
a lot more attention in a positive way. It has had a lot of 
attention in a negative way. But it is going to need a lot of 
attention positively for many reasons, and I think this is one 
of them.
    The U.S. bilateral effort with Russia to reduce the threat 
of WMD has always been a bedrock of the U.S.-Russian 
relationship, and there have been a number of significant 
accomplishments there. Now, I am not sure which of you or how 
many of your staff have traveled to Russia, but I know there 
has been some travel. And you have had discussions with senior 
military and government officials, and I am wondering what 
conclusions or insights in particular you can share with us 
about our future relationship with Russia, our cooperative 
relationship, which is so essential to address the WMD 
proliferation issue and terrorism generally and to try to 
further reduce stockpiles of nuclear weapons. So, Mr. Chairman, 
maybe you could start on that.
    Senator Graham. We did travel and spent 4 days in Russia. I 
was, frankly, a little surprised that we got visas because this 
was shortly after the Russian invasion of Georgia and all the 
tension that came out of that.
    We not only received visas, we received a surprisingly 
constructive and hospitable reception. This was a common theme. 
The United States and Russia are two great powers. They are 
going to exist on this planet for a long time. There will be 
some good periods, and there will be some bad periods. But 
there is one thing that we share in common. Over 95 percent of 
the nuclear material on the globe is in our control, one of 
these two countries. We have a responsibility to the world to 
see that they are properly secure. These cannot become part of 
the transitory disputes between our two countries.
    We went to our Department of Energy, Secretary Bodman and 
our representatives who are in Russia monitoring Russian 
compliance, and they said that on the ground that statement was 
being realized, that, in fact, there had been no diminution in 
the Russian effort to secure their materials. We found that to 
be very encouraging.
    So our recommendation is that we continue to recognize the 
primacy of security of nuclear weapons in our relationship and 
that we do some things that would tell the world that we are 
serious about this.
    As two examples, a number of the agreements that were 
entered into after the end of the Cold War are about to expire. 
Some of them require that renewal negotiations start several 
years before the treaty is going to expire. We think that we 
should take the initiative in restarting those negotiations to 
indicate that we think--the relationship may change. It is not 
going to be as much of the United States providing money for 
the Soviet Union's benefit, it will be more of a partnership, a 
relationship of two equals, but that the relationship be 
established is very important.
    Another area that I might say I am personally very 
interested in is I visited Pakistan in 2002, and I was struck 
with the fact that their Joint Chiefs of Staff said that we 
have virtually no relationship with the Indians analogous to 
what you had with the Soviet Union during the Cold War, 
relationships to try to avoid an accidental launch or an 
overreaction to an unintended, potentially provocative event.
    I think that the United States and Russia could play a 
great service to the world if they could go to India and 
Pakistan and say, ``Look, we have 40 years of experience with 
how you do this, and we would like to share that experience and 
maybe encourage you to develop some similar protocols,'' so 
that what may well soon be the fourth and fifth largest nuclear 
powers in the world will have that degree of additional 
security in how they are managing these terrific sources of 
destruction.
    Senator Levin. Did you reach any conclusions about the 
IAEA, particularly in terms of the adequacy of funding of the 
IAEA?
    Senator Graham. Yes, we found that the funding is 
inadequate, that their job has multiplied by several factors in 
the last 25 years without any commensurate increase in 
resources, and that actually the level of surveillance at 
individual plants around the world is lower today than it was 
25 years ago. And we are facing this nuclear renaissance where 
there will be many more plants. Also, a lot of the increased 
funding that they have gotten have been for specific projects 
not in their base budget. So it has been difficult for them to 
plan, to hire the scientists, build the labs that are going to 
be required in this enlarged nuclear age when there is not an 
assured, reliable funding base.
    So I think, again, this is an area in which the United 
States should take leadership in analyzing what is going to be 
required, what we want for our own safety the IAEA to be able 
to do and step forward with the support and resources to make 
that happen.
    Senator Levin. Thank you.
    Mr. Roemer. Senator, can I jump in at the end of Senator 
Graham's remarks?
    Chairman Lieberman. Go ahead.
    Mr. Roemer. We had several meetings in Moscow over a 
significant number of days, and after we talked about Georgia 
and the United States' profound disappointment there and after 
we talked about human rights issues and after both sides were 
able to express their grievances and their concerns, we found 
that there was a great deal of commonality and interest in 
working together on counterproliferation initiatives.
    We outline in our report ways to strengthen the 
Proliferation Security Initiative. We talk about extending the 
essential verification and monitoring provisions of the 
Strategic Arms Reduction Treaty. We talk about the role of 
encouraging China, Pakistan, and India to announce a moratorium 
on the production of fissile materials and reduce their 
existing nuclear stockpiles.
    But we also found, in addition to five or six things of 
common interest and where we could develop some joint 
initiatives, when we talked to a couple different generals that 
we had meetings with about their own threat, Chechnya, they 
quickly go back to the Beslan attacks in their school, where 
their schoolchildren were attacked by terrorists. And so they 
have a real common interest here, despite other disagreements 
in the world, to work together with us on this terrorism 
proliferation issue. And the more we can propose new 
initiatives to work with them and outline these issues and have 
the congressional oversight do it, the new Administration can 
initiate these things, and you can follow through on your 
oversight committees. We need meetings with the U.S. Ambassador 
to Russia and the Russian Ambassador to the U.S., and to stress 
this partnership with other meetings with China and Pakistan, I 
think we are going to find that this is a real area of 
productive joint initiative in the future.
    Senator Levin. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Levin.
    Ms. Cleveland. Just one thing on the IAEA resource issue, I 
would be remiss if I did not say that I think there was 
consensus on the question of increased resources, but it ought 
to be performance based. And I think there are real concerns 
about the management of the institution. And so in my former 
capacity of not desiring to create unfunded mandates, I think 
that performance standard is critical.
    Chairman Lieberman. Senator Graham.
    Senator Graham. Mr. Chairman, Commissioner Roemer I know is 
going to have to leave shortly, and I know he regrets that 
necessity. So I would suggest if anyone has a question that 
they would like to direct to Mr. Roemer, if they might do so 
soon.
    Mr. Roemer. I apologize. I have an event at the Center for 
National Policy that I am hosting with Ambassador Thomas 
Pickering and the author of ``Victory on the Potomac,'' who 
helped organize the successful efforts on the Goldwater-Nichols 
Act, and we are trying to look at ways to get this intergration 
in our foreign policy arena and our national security. So we 
are having an event at the center at noon, and I have to excuse 
myself for that.
    Chairman Lieberman. Thanks, Mr. Roemer. We understand 
completely, and I think we will ask Members who have questions 
for you to file them with you in writing.
    Mr. Roemer. Thank you, Senator.
    Chairman Lieberman. I just want to say very briefly, 
because Senator Graham said something about how important it 
would be for Pakistan and India to develop the kind of high-
level communications about their nuclear systems that we have 
had with the Russians. I was in New Delhi and Islamabad last 
week, and what was apparent to all of us--and probably to 
anybody who was not there--is that the terrorist attack in 
Mumbai was not solely or even primarily an expression of the 
classic jihadist goals. It probably had a specific aim here, 
which was to disrupt--I do not want to overstate it--the 
improving relations between Pakistan and India, particularly 
since President Zardari took office. In fact, it was perhaps 
intended to disrupt the increasing cooperation between the 
United States, Pakistan, and Afghanistan with regard to 
striking at terrorist basis in the federally administered 
tribal areas.
    So it just reminds us of the way in which non-state actors 
using conventional or unconventional weapons of mass 
destruction can not only carry out fanatical ideological aims, 
but also can actually influence and sometimes control the 
behavior of state actors. Of course, I hope that we can get 
back on the trail that you, Senator Graham, have suggested.
    Senator Collins and I wanted to hold this hearing as 
quickly as we could after your excellent 9/11 Commission 
Report. I think we had a secondary subconscious aim, which was 
to have one more hearing at which we could have the honor of 
the presence of John Warner. With that, I am honored to call on 
Senator Warner.

              OPENING TESTIMONY OF SENATOR WARNER

    Senator Warner. Thank you very much, Mr. Chairman, and I 
commend you and the Ranking Member and my distinguished 
colleague Senator Levin for having this hearing. I am 
delighted. I guess this is my last appearance in 216 times on 
this side of the dias, and then maybe after 2 years I can get 
on the other side. But I have a hiatus to fill under the 
current laws.
    Commissioner Roemer, I do appreciate your reference to the 
old days on the Intelligence Committee with Senator DeConcini. 
I was Vice Chairman, I think. Was that during the period you 
were there?
    Mr. Roemer. Yes, sir, and I neglected to mention how 
instrumental you were----
    Senator Warner. No, that is all right. I just wanted to----
    Mr. Roemer [continuing]. In helping to pass the Goldwater-
Nichols Act.
    Senator Warner. Do not worry about any neglect. I have 
received more than my share of references to the past.
    I am a believer in the work of commissions, and they serve 
a very important advisory role to the Executive and Legislative 
Branches and to inform the public. And I wish to commend each 
of you individually for a job well done.
    I simply want to ask a question, too, on process because 
undoubtedly the new Administration will reflect on the use of 
commissions. Do you feel that the Federal Executive Branch 
responded fully and adequately to your several requests for 
information and discussions at various levels?
    Senator Graham. Senator, let me say how much the Nation has 
been honored and benefited by your service. We wish you well.
    Senator Warner. Well, I thank you, Commissioner Graham.
    Senator Graham. And I doubt that there is going to be a 2-
year hiatus in your----
    Senator Warner. The law requires that. Otherwise, I go to 
prison. [Laughter.]
    Senator Graham. But there certainly are lawful ways in 
which you can----
    Senator Warner. Well, I am not sure. I have studied this 
law at great length, and I believe at my age it really is not 
good for my health to be in prison. [Laughter.]
    Senator Graham. We submitted our report to President Bush, 
Vice President Cheney, and other members of the current 
Administration, and while some might interpret some of our 
observations, particularly the one that we are losing ground to 
our adversaries, as being negative, I think there was a general 
recognition that is true not because of our inactivity but 
because the game has stepped up another notch, and we have got 
to do likewise.
    We also submitted it to our former colleague, Senator 
Biden, on behalf of the new Administration, and he pointed out 
that Senator Obama has already, for instance, committed to 
establishing a position within the Executive Branch that will 
have singular responsibility for the oversight of these issues 
and, without making any specific commitments, indicated a 
general support for the thrust of the recommendations that we 
have. And we submitted our report to the leadership in the 
House and the Senate.
    Senator Warner. I saw all the entries in this well-prepared 
dossier.
    Senator Talent. Senator, I would say that we received good 
cooperation. I understood your question to be did they 
cooperate with us?
    Senator Warner. Yes.
    Senator Talent. And I think they did. In fact, I would 
really say the cooperation was very good. There were the usual 
issues once we got our clearances, those of us who needed it, 
about how many could go in and see this classified thing and 
that.
    Senator Warner. On the whole, you think it was----
    Senator Talent. I do, and I think that everybody we dealt 
with--and we worked with congressional bodies, also, as well as 
third parties--wished us well. We put this, I think, in the 
Executive Summary. Really, we are trying to reassure the 
American people that we did not encounter anybody in any agency 
obviously of either party in either branch of government who 
did not want the government of the United States to succeed in 
stopping weapons of mass destruction. I mean, everybody is 
working very hard to achieve that goal, and I think there was 
good cooperation.
    Senator Warner. Do the other two Commissioners likewise 
feel that is the case?
    Mr. Roemer. I would agree with the Chairman and Senator 
Talent, Senator Warner. But on to your larger question about 
commissions in general, which you said you generally support, 
as you probably know the history of these commissions, I 
believe, our first President created the first commission and 
picked average citizens to help advise him on what happened 
after the Whiskey Rebellion and what he should do about it. And 
there were a couple people that recommended what he should do 
as a response to that rebellion, and I believe he took their 
advice. So the first one was fairly successful.
    We have had commissions on war, on race relations, on 
intelligence gathering, and on the September 11, 2001, attacks, 
and I think generally commissions can serve a very important, 
worthwhile, and earnest purpose. But I also think that they can 
be overdone, and Congress can begin to punt some of its 
responsibilities to outside commissions when Congress itself 
needs to concentrate on its own oversight, accountability, and 
reorganization.
    So I think there is a balance to be achieved here in the 
future. I may be talking myself out of future jobs, Senator 
Warner, and never be on a commission again. But I think that we 
might be tipping the balance here and creating too many of 
these commissions. And the hard work of oversight and making 
our government accountable, of knowing what is going on in the 
Executive Branch, holding them accountable and being 
responsible to our citizenry is a key job done in our 
committees.
    As Richard Fenno, the scholar on committees, said, ``The 
work of Congress is the work of its committees.'' And that 
includes oversight.
    Senator Warner. Ms. Cleveland, do you have any view?
    Ms. Cleveland. I concur. We got full cooperation.
    Senator Warner. Good.
    Ms. Cleveland. I think we met with more than 200 staffers 
and various agencies, and they were very frank, I think, in 
their assessment of some of the challenges they face.
    Senator Warner. As I have stated, you did a remarkable job 
in a short time.
    To what extent have any of the entities of the Federal 
Government, particularly the DNI, come back and commented on 
your report? And if so, how do those comments then become 
incorporated in such reports as are made permanent?
    Senator Graham. Senator, our report was issued on December 
3, 2008, so it has been just a bit over a week. To my 
knowledge, there has been no formal comment by any agency. I 
mentioned the one statement that Admiral McConnell made, 
which----
    Senator Warner. Yes, I have read that.
    Senator Graham [continuing]. Seemed to be parallel with our 
assessment of the risk. Our report is our report. It is now 
bound. In fact, if I could give a commercial, it is being 
printed by Vantage Books and will be sold broadly. The proceeds 
that would normally be the author's royalty will go to a U.S. 
foundation which is working to build schools and hospitals in 
Pakistan, which we think underscores the centrality of that 
country in accomplishing our objective of avoiding 
proliferation of weapons of mass destruction.
    Senator Warner. Senator Graham, just on process again, 
obviously you had to get into classified material. I think you 
mentioned that. But you elected not to file a classified annex 
to your report. If so, for what reason did you decide not to do 
that?
    Senator Graham. First, we did submit the report to the 
appropriate agencies for clearance.
    Senator Warner. I am not suggesting that, but there is 
obviously some material you unearthed in your hard work that 
would be of advice to both the Executive and Legislative 
Branches in the nature of classified observations.
    Senator Graham. At this point it was our feeling that the 
essential message that we wanted to convey and the supporting 
rationale and documentation for that position could be conveyed 
in the declassified form and be available to all the American 
people as well as decision makers.
    Senator Talent. I just confirmed with staff, because 
Senator Graham and I talked about this late in the stages, we 
did not think that there was enough that relied upon classified 
material for us to have to do that, Senator. And we ended up 
not having to do that.
    Senator Warner. Thank you very much. I thank the Chairman 
and Ranking Member.
    Chairman Lieberman. Thank you very much, Senator Warner.
    Let me now indicate for the information of the Members here 
what the early-bird order suggests, and obviously we can only 
call on people if they are here: Senators Akaka, Voinovich, 
Carper, Coleman, McCaskill, Nelson, Martinez, Thune, and Pryor.
    Senator Akaka.

               OPENING TESTIMONY OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I would 
like to thank you and Senator Collins for holding this hearing 
today. And I want to also welcome our Senators here, Bob Graham 
and Jim Talent, and also Tim Roemer and Robin Cleveland, and 
along with your welcome is a welcome to other Commissioners, as 
well as staff. Thank you for your efforts in completing this 
report, ``World at Risk.'' \1\ And I share your concerns that 
WMD proliferation and terrorism are critical national security 
issues.
---------------------------------------------------------------------------
    \1\ The report, titled ``World at Risk,'' appears in the Appendix 
on page 58.
---------------------------------------------------------------------------
    I want to be a little more specific in asking you this 
question. The Commission recommends building a national 
security workforce for the 21st Century with the related goal 
of creating a culture of interagency collaboration, 
flexibility, and innovation. And along with this in your 
report, you focus on WMD proliferation and terrorism, and you 
have highlighted the need for improved government operations as 
well as improved coordination throughout government to counter 
these threats and strengthen our national security workforce.
    In terms of creating this culture, can you name which 
departments and agencies would benefit in particular from 
greater participation in these joint duty programs?
    Senator Talent. Thanks for your question, Senator, and for 
spotlighting a really important part of the report. It is one 
of the reasons I mentioned it in my very brief summary.
    I would say everybody benefits because it is agency-wide, 
but the ones who, I think, were the most concerned were 
probably the intelligence agencies, their ability to analyze 
data and continue to promote a joint culture. One of the good-
news stories of this report is the progress that has been made 
within the intelligence community in accomplishing culture 
change, operating in a more synergistic fashion along the lines 
of a Goldwater-Nichols model in the military. But to do it, 
they have got to increase joint curriculum, joint education 
within the service. They have to continue to recruit 
effectively and step up their efforts to recruit among the 
right national communities, people who can analyze this data.
    And then, second, the labs were very concerned, Sandia was 
very concerned that if something specific is not done, long-
term type of recruiting of people into those kinds of sciences, 
they are not going to be able to continue providing the 
expertise that they provide across all agencies. As you know, 
Senator, a huge number of agencies contract with the labs in 
various kinds of purposes. And if they do not have this 
ability, they are not going to be able to provide the needs for 
our government, much less international organizations like the 
IAEA.
    Senator Akaka. This report references the need for more 
individuals with language skills in the Federal Government. As 
you may know, I have been a strong advocate for the need for a 
more comprehensive approach to increase language education and 
training in order to grow the number of qualified applicants 
and ensure that the current gap in language skills does not 
expand.
    What do you believe are the most significant challenges to 
recruiting and training individuals in these skills?
    Senator Graham. Well, first, I think we do not have today a 
pipeline that is manageable to give us some confidence that 
there will be those follow-on personnel to carry out important 
national missions. Contrast the civilian side of the government 
with the military. The military not only has military 
academies, but also in many universities and colleges, Reserve 
Officer Training Corps (ROTC) programs, so that the Army, Navy, 
and Air Force can tell what their flow of young officers will 
be and can plan to carry out their missions based on that human 
capital. We do not have that in other areas.
    I will say I have personally been interested in 
establishing a very similar process for the intelligence 
community where we could bring young people in at a university 
level, have them study for 3, 4, or 5 years these difficult 
strategic languages, as well as study some of the science that 
the intelligence community will need so that it, like the 
military, will have an assured source of new personnel. I think 
that is one idea that could be expanded to substantially 
accomplish overcoming the concerns that you have expressed.
    Senator Talent. If I could add very briefly, Senator, to 
that, there are some practical issues involved that you keep 
running into. The kind of people we want are highly skilled 
people who have a lot of opportunities in a lot of areas, and 
it just takes a lot longer for the government to hire them. 
They have to go through the security clearances and the rest of 
it. These are individuals getting out of a post-graduate 
course; they cannot wait around for 14 or 15 months to find out 
whether they get a job or whether they will be able to go to 
work.
    So we have to balance better the need for the security 
clearances and all the things the government does before it 
hires people with the need for speed as well so that we can 
continue to recruit the best people.
    Senator Graham. And if I could just add another element to 
that, today there are groups of Americans who in many ways 
represent the most immediate source of assistance who have been 
largely excluded, particularly from the intelligence community, 
and those are persons of Middle Eastern background. It is very 
difficult for a young person, let us say, from an Iranian 
ancestry to get into the intelligence agencies. A large part of 
that has to do with the clearance process that puts a lot of 
emphasis on your family background. It is hard to get access to 
the family if the family is in Iran, and it is not unlikely 
that you have an uncle or some family member who may be holding 
a position that raises some concern.
    I think another benefit of a program like the military's 
ROTC is that these young people would be under very personal, 
close surveillance for 4 years, and you could make a judgment 
as to their reliability more based on your assessment of their 
character than what their family may be doing back in their 
home countries.
    Senator Akaka. Let me finally comment that I believe there 
is a need for a comprehensive strategy that needs to be 
developed regarding critical language skills, and I take it 
that you also believe that, and I hope we can move in that 
direction.
    Mr. Chairman, I have a full statement that I would like to 
be included in the record.
    Chairman Lieberman. Without objection, it will be included 
in the record.
    [The prepared statement of Senator Akaka follows:]

              OPENING PREPARED STATEMENT OF SENATOR AKAKA
    I would like to thank Senator Lieberman for holding this hearing 
today. I also want to welcome Senators Bob Graham and Jim Talent, along 
with Commissioners Tim Roemer and Robin Cleveland, and thank them, 
along with the other commissioners and staff, for their efforts in 
completing this report. I share your concerns that weapons of mass 
destruction (WMD) proliferation and terrorism are critical national 
security threats.
    Your report comes at a crucial time. Tensions between India and 
Pakistan remain high in the wake of the horrific terrorist attacks in 
Mumbai. We must not forget that both countries have nuclear weapons and 
both are beneficiaries of new nuclear trade agreements with major 
powers. At the non-state actor level, al-Qaeda has not disavowed its 
desire to obtain weapons of mass destruction. History suggests that 
terrorists often attempt attacks shortly before or after governmental 
transitions, and the Department of Homeland Security is preparing for 
its first-ever presidential transition. These are challenging times.
    Along with your report's focus on WMD proliferation and terrorism, 
you highlighted the need for improved government operations and the 
vital role of the citizen. The report asserts that we must improve 
coordination throughout our government to counter these threats and 
strengthen our national security workforce. I have long maintained that 
we cannot counter national security threats, including WMD 
proliferation and terrorism, without a workforce that has the full 
range of language, cultural, scientific, and technical capabilities. In 
addition, we must ensure that we openly and honestly inform citizens 
about the threats facing them and what role they can play in our 
Nation's homeland security.
    At a critical point in our Nation's history, almost 50 years ago, 
an agency designed to address the challenges of arms control was 
created. In 1999, that agency was eliminated and its functions merged 
into the State Department. At the current, critical point in history, 
we may need a new agency focused on nonproliferation and arms control 
that is designed to meet 21st Century threats. The hearings that I held 
earlier this year made it clear that the State Department is not fully 
capable of facing these threats. I plan to continue focusing on this 
issue during the 111th Congress.
    I want to thank again our witnesses for being here today.

    Chairman Lieberman. Thanks, Senator Akaka. Senator Carper, 
welcome.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. I want to say to our 
colleagues, Senator Graham and Senator Talent, it is great to 
see you both. Welcome. And Tim Roemer slipped out of the room, 
but I served with him in the House and am very much 
appreciative of his continued service to our country.
    Ms. Cleveland, you are in good company, and they tell me 
that they are in good company with you, too. So thank you for 
the work that you have done on this.
    I have a question first for Senator Graham, maybe a couple 
of questions, and then I have a question that I would like to 
direct to anyone on the panel who might wish to respond. But I 
am especially interested in the part of your report that 
focuses on Pakistan and your recommendations there, too.
    Senator Graham, my understanding is that you strongly 
believe that our country should appoint a special envoy to deal 
with India-Pakistan tensions. Was that recommendation actually 
included in the report that you have prepared?
    Senator Graham. The answer is no.
    Senator Carper. Could you talk about that?
    Senator Graham. Well, that was part of a general policy 
that we wanted to focus our recommendations on goals to be 
accomplished and strategic steps necessary to accomplish those 
goals. We thought it was inappropriate for us to be at what I 
would call the tactical level: First, in many cases it went 
beyond our expertise, and us saying it did not add much to the 
force of the argument; and, second, that is a decision which 
either Congress or a new President or some other responsible 
person has, and they should have the latitude to determine what 
tactics they want to follow.
    I understand that this idea of having a person who 
specifically will be focused on our interests in this part of 
the world--and we think Pakistan, while there are some things 
that are Pakistan-specific, it also has to be dealt with in a 
larger regional context. You are not going to bleed off a lot 
of the bad feeling between Pakistan and India unless you can 
help deal with questions like Kashmir, which has been a 60-year 
thorn in the side of that relationship. So whoever performs 
this function needs to have a portfolio that is not singularly 
Pakistan, but allows the region to be part of the solution to 
the problem.
    Senator Carper. All right. Let me come back at this just in 
a little different way. I appreciate why you did not include it 
in your report. But could you explain to us how such an envoy 
could be effective given that India has, I think, firmly and 
consistently taken a position for a long time that they are not 
interested in outside mediation of their disagreements with 
Pakistan?
    Senator Graham. Well, the landscape is littered with 
failures of efforts to have special envoys, and many of those 
bodies are in the Middle East. But there also have been 
successes. For instance, I think the work that Ambassador 
Richard Holbrooke and General Wesley Clark did in Bosnia to try 
to defuse that very contentious part of the world and to 
stabilize it was very successful and has largely helped keep 
the peace in the Balkans. So that would be an example of 
effective diplomacy in a very contentious area that may give 
you some hope that a similar initiative could be helpful in 
Central Asia.
    Senator Talent. Senator, on this issue--and we did discuss 
this--I did not personally have a dog in that hunt, as we say 
back in Mississippi. And I think everybody believes that it is 
important to pay very high level attention to Pakistan. How the 
President-elect chooses to do that, whether through a special 
envoy, which is certainly a possibility--and you see this in 
several places in the report where we did not want to presume 
to make tactical choices for the President or, for that matter, 
for Congress. Where we felt strongly about a position, we said 
it, like the WMD Coordinator. I think we all agree with the 
thrust of what you are saying, that, look, it needs to be 
regional, there needs to be somebody who is senior, who has the 
attention of the President and the foreign policy establishment 
who is paying attention to that. I do not think anybody here 
would disagree with that, for all the reasons you are saying.
    Senator Carper. Thank you.
    I noticed that the Commission came down in support of the 
Bush Administration's decision 5 or 6 years ago to walk away 
from the negotiations on an Inspections Protocol to the 
Biological Weapons Convention. And I think you also recommended 
that the next Administration resist international pressure to 
resume negotiations on such a protocol.
    Ms. Cleveland, I think you may have addressed this briefly 
this morning, but could one or several of you elaborate on why 
you think it would be a mistake to try to set up an 
international inspections regime for biological weapons and 
what steps you recommend instead to reduce the risk of a 
biological weapons attack?
    Ms. Cleveland. Senator, we heard from a number of people 
that had been involved in those negotiations early on, and we 
are looking at them with fresh eyes. And I think the concern 
was, given the dual-use nature of so much of the material that 
we are talking about, it would be virtually impossible to come 
up with a credible regime. And rather than tilt at windmills, I 
think the sense was that it was more important to come up with 
a framework where there would be international adherence to the 
norms and standards in the underlying treaty.
    I am trying to think if we heard from any witnesses that 
actually argued in favor of proceeding with a revival of the 
protocol. I think on a bipartisan basis we heard generally that 
it would not be a well-advised course. It would be expending an 
enormous amount of time to pursue a fleeting possibility.
    I think what we learned was that when you had demands 
imposed by Iran and some other countries as to what would the 
cost be in terms of the verification protocol, they were 
suggesting, for example, suspension of all U.S. export controls 
in return for establishing a verification regime that the cost 
was perceived as too high and probably would not yield the kind 
of result we want in terms of access to information.
    Senator Carper. All right. Thanks. Senator Graham.
    Senator Graham. Let me say as one who came to the 
conclusion that is in our report with some reluctance, because 
I recognized the importance of having a strong international 
convention to govern--biological weapons are distinctly 
different than nuclear where we do have an agency, the IAEA, 
that does that. There are a definable number of sites around 
the world where nuclear material is being produced, used, or 
stored. So it is possible to have the list of the addresses of 
all those places and have a meaningful set of inspections. With 
biological, the number is so enormous and constantly changing 
that we felt that you might create false expectations if you 
said we were going to have effective international inspection.
    What we suggested was that there should be two objectives 
now with the biological weapons. One is to get all the 
countries that are in this business members of the convention. 
There still are a handful of important countries that are not 
even members of the Biological Weapons Convention. And then, 
second, have a verification regime which is nation-based. I am 
now sort of stating my own definition of what that means, but 
maybe coming up with some standards of what does a nation have 
to have in terms of regulations and enforcement capability to 
give the world confidence that their laboratories are not being 
used for inappropriate purposes, and then monitor whether the 
nation is complying with those standards of regulations and 
enforcement capability.
    One of the things about biological is it is in everybody's 
interest not to let this leak out. No country, no matter how 
big or small, wants to be fingered as the contributant to 
thousands of people being killed because biological weapons 
leaked out of their laboratories into the hands of terrorists. 
So we think you can build on that common interest of all the 
nations of the world to have an effective verification scheme 
that does not overstate what a biological IAEA might be able to 
accomplish.
    Senator Carper. OK, thanks. My time has expired. Let me 
just say again thank you for your continued service and for the 
good work that you continue to do for our country. Much 
obliged.
    Chairman Lieberman. Thanks very much, Senator Carper.
    Next is Senator Coleman. It strikes me I talked about the 
various reasons we are holding this hearing. Perhaps one 
unconscious one was to give you an opportunity, Senator 
Coleman, to focus your considerable talents on something other 
than the recount going on in Minnesota. We welcome you to the 
meeting and thank you for being here.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Mr. Chairman. Actually, this is 
a good opportunity to talk to my colleague from Florida about 
that when this is all over. But let me say to my colleagues, by 
the way, I do thank you for this tremendous continued service. 
We use the term ``friends'' in this body sometimes too loosely, 
but Senator Talent I consider a dear friend and a great 
American, and, Senator Graham, I have always had great respect 
for your leadership in this area. And, Ms. Cleveland, you are 
obviously in great company.
    I want to talk a little bit about the biological threat and 
just step back. One of the things that we did in the Permanent 
Subcommittee on Investigations was look at how easy the 
possibilities of obtaining nuclear material were to create a 
dirty bomb by setting up a bogus facility. And that is an area 
where it is highly regulated. A specific agency has the 
responsibility, regulated both on the State and Federal level, 
and we have found gaps in the system and were able to set up a 
bogus company to get access to material that could be used to 
create a dirty bomb. So I look at that area that is regulated, 
and then I look at the biological area, and the regulation that 
we have is a regulation with a specific select agent list. The 
nature of biological materials is that you can create new 
agents today that are not on any list. So the first question, 
then perhaps to Ms. Cleveland, how easy would it be to create a 
bogus BSL-3 lab to get pathogens? Then, if in operation, what 
is the capability at the State and Federal level to know that 
there is a problem?
    Ms. Cleveland. Senator, I do not think you need to create a 
bogus lab because I think that the oversight and regulation in 
place already presents a risk. With the proliferation of labs 
that we have in the United States and the lack of clear 
accountability, it does not need to be bogus.
    So I think what is important is to establish a single-point 
contact in terms of agency oversight and supervise the labs 
that we have.
    Senator Coleman. And I believe Senator Collins pursued this 
area in her question, but the report talks about at times 
coordination between DHS and Health and Human Services. You do 
not want to look back and said that it did not happen. Is there 
a recommendation for a single source where the regulation 
should be centered, where the responsibility is so that we are 
not caught in a ``he said, she said'' situation?
    Ms. Cleveland. I think we all felt that Homeland Security 
had the mission to protect the country, and that ought to be 
the beginning point. And I think we had a sense in talking to 
Governor Napolitano, the designated Secretary, that she was 
seized with the urgency of that task. But I think an agency 
with the focus of the homeland security mission probably should 
be in charge.
    Senator Talent. If I could respond to this area, because 
you were kind enough to be complimentary toward us, we before 
emphasized our recommendations for congressional change, but I 
think it is important to look--it is important to emphasize how 
hugely effective the role of this Committee and the Congress 
will be in this area, more so than if just Executive action is 
taken. Probably in theory this could be done by Executive 
order. But one of the things we found in talking to the 
intelligence community about the intelligence reforms was the 
prominence of congressional action in that law in their 
thinking. Even the ones who did not like the idea of cultural 
jointness and the rest of it kept saying when Congress passed 
that law, we knew we had to salute and go on.
    So this is an area where if you all follow up, even if 
theoretically the President can do it--it is weird, but I think 
the Executive Branch people may be more impressed by you all 
doing something than an order from the President in this area. 
I am sorry to take up your time, but I just----
    Senator Coleman. No. My next question would have focused on 
that action. This is an area that needs great oversight in a 
way that does not diminish the scientific capability or 
capacity of folks in research to do the things they do. But 
here is an area of great vulnerability, and I presume at the 
State level there is not a lot of oversight here.
    Ms. Cleveland. You have problems at the Federal, State, and 
local level, and you currently have a system in place that 
requires voluntary reporting of the transfer of these lethal 
pathogens from lab to lab. But as we all know, when you have 
voluntary reporting, if it does not happen and there is no 
follow-up and accountability in terms of Federal oversight or 
congressional oversight, voluntary reporting sometimes falls 
between the cracks.
    Senator Coleman. I would hope and anticipate that we will 
continue to move down this path.
    Let me shift gears a little bit. In the area of citizen 
response and the things that we can do to facilitate--I think 
the report says, ``Quick access to information can save 
lives.'' And I have looked at some of the things we have done 
in the past, and I think the report talks about it, 
recommendations about duct tape and even the color coding level 
that we have today, and I am not sure how helpful that is to 
most citizens. Who takes the bull by the horns on this one and 
really ups the level of citizen awareness of very concrete 
steps that can and should be taken, when something like this 
happens somewhere, so that the response is one that saves 
lives, minimizes the damage, and ameliorates some of the 
terrible things that might otherwise follow?
    Senator Graham. Well, let me suggest that this Committee 
would be an appropriate place to take that leadership. As an 
example, let me just suggest areas of citizen involvement.
    Every community in this country is going to need to have 
the capability to respond particularly to a biological attack. 
While our focus is on preventing it, the reality is that is 
very difficult to do, and there may be a biological attack. How 
well is St. Paul, Hartford, or Portland prepared to deal with 
that? I think laying out what are some of the standards that a 
community should strive for, what is the gold standard of a 
community being prepared for this, so that citizens could then 
hold their local officials responsible for that level of 
protections.
    A second area is that we think that the American people, in 
large and in specific groups, need to be better informed. The 
question has been raised going back to this anthrax incident of 
2001. The FBI carried out that investigation in a very closed 
manner. It has been suggested that maybe if they were more open 
and had involved more scientists in this process, it would not 
have taken 7 years to have found out what the nature of the 
attack was. So using the population broadly, but also specific 
groups of the population more effectively.
    Another area, the British, when we met with Scotland Yard, 
MI-5, and MI-6 in London, they said there was no terrorist 
attack inside Great Britain that had been aborted without 
citizen involvement. They have used their citizens very 
effectively as the front line of knowledge of what is going on 
in the community.
    Now, they have a different history and culture, from World 
War II when they were under attack for such a long period of 
time, to the Irish Republican Army (IRA) since World War II. 
We, fortunately, avoided both of those experiences. So it is 
going to be a heavier lift to get U.S. citizens engaged at that 
level, but it would certainly be a tremendous asset in our 
arsenal of avoiding a weapon of mass destruction if we could do 
so.
    Senator Talent. And we recommend the Secretary of Homeland 
Security take the lead in this public information ``campaign,'' 
which is maybe the wrong word for it. Actually, when we briefed 
the Secretary-designate, she indicated a real eagerness to roll 
up her sleeves and get involved in this. And I think it is 
natural to come from her. It would vindicate the credibility of 
the agency, which was hurt 6 or 7 years ago with the initial 
discussions of it. So it ought to come from them.
    It is not good that the American public is as unaware of 
the nature and potential consequences of a biological attack as 
they are. It will just promote panic if something happens. So I 
think it is at that level that it ought to occur, and I think 
our report says so. And, again, this is an example of why we 
were saying that, for the sake of public safety and Congress' 
participation in this, it would be good to get a more unified 
oversight of that agency so you all can play your role in 
making certain that they do what they are supposed to do. And 
right now, oversight in that area is not what it ought to be.
    Ms. Cleveland. Can I correct something that I said earlier? 
There is a mandatory requirement to report on transfer of a 
select group of pathogens. The problem is that there is no 
enforcement mechanism. There is no way to determine whether or 
not that code, in fact, is being observed.
    Senator Coleman. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Coleman. Senator 
Bill Nelson.

 OPENING STATEMENT OF SENATOR BILL NELSON, A U.S. SENATOR FROM 
                      THE STATE OF FLORIDA

    Senator Nelson. Thank you all for your continued public 
service. The Congress has been repeatedly assured by the Bush 
Administration that Pakistan's nuclear arsenal is safe. What if 
the worst took place that you had a fall of the government into 
the hands of some terrorist group? Do you all want to comment?
    Senator Graham. Well, today the nuclear arsenal in Pakistan 
is under the control of the military, as it has been 
traditionally, and there are strained relations between the 
military and the civilian government. Witness this recent 
incident where the civilian government ordered the military 
intelligence head to go to Mumbai to help with the 
investigation, and then the military reversed those orders and 
the intelligence officer stayed home and did not go to India. 
So that is an unstable relationship.
    I think what would be ideal is if we could work with the 
Pakistanis and maybe with the Russians and some other entities 
so it is not just a total U.S. operation to try to 
internationalize the security of both Pakistan's nuclear 
weapons and India's nuclear weapons. That would be a source of 
comfort to both of those countries and to the world.
    Senator Nelson. Senator Graham, you mentioned earlier most 
insightfully that what we need to do, you were building on the 
idea of the soft power in Pakistan, and it underscores one of 
your recommendations that we need to counter and defeat 
extremist ideology in Pakistan, and you said with schools and 
hospitals. I agree. Do you want to for the record amplify?
    Senator Graham. Well, what I said was that this report that 
we have, the royalties for the sale of this book will go to a 
U.S. foundation whose purpose is to build schools and hospitals 
in Pakistan. We thought that was an appropriate way to 
underscore the centrality of Pakistan in responding to the 
challenge of proliferation.
    Senator Talent has spent a great deal of time thinking 
about this issue of the use of soft power generally, but with 
Pakistan being the initial point of impact, and I think I will 
turn it over to him. But basically I think it says that we 
cannot depend just on the sword to achieve our objectives. We 
cannot continue to deal with the symptoms of terrorism. We have 
to start to understand what are the root causes of terrorism 
and where, through soft power and diplomatic, economic, and 
human interchanges, we can begin to bleed some of that 
extremism out of the system.
    Senator Talent. And I think to answer the thrust of your 
question, the answer is yes. I think we have a unique time 
because there is really a pretty broad consensus, including 
within the military, and Secretary Gates, that we need to have 
this capability as a government. In addition to the traditional 
military and intelligence capability, this is also very 
important. This is a full-spectrum type of engagement with the 
terrorists.
    Now, what we did, Senator, was we took it a little step 
further, and we said we just cannot think of it in vague terms 
of foreign assistance. Our agencies that do this have to sit 
down and ask themselves what capabilities do we need. Just as 
the military interact when the improvised explosive devices 
(IEDs) started hitting us; they said, OK, we have to be able to 
identify the signatures of the bomb makers, and so there are 
some capabilities we need, and how do we get that organically? 
We need the State Department to do the same thing. What does 
this really mean? And we said in the report as a minimum it is 
the ability to project targeted, effective messages about our 
intentions and to use communications to counter what the 
terrorists are saying, and at least in a targeted way--and this 
is what you are referring to--help people build local social, 
economic, and educational institutions that are a bulwark 
against radicalism. We all want to do that, but we do not want 
to be in a situation where President Obama says, ``Boy, I 
really like that,'' issues a presidential directive, and 
nothing happens because nobody has the capability to do it.
    And so the same thing you all achieved in the intelligence 
community that is going on there now needs really to happen in 
the State Department, and we have not briefed Secretary-
designate Hillary Clinton about this. I cannot imagine she 
would disagree, and I just think it needs to be a priority.
    Senator Nelson. Looking back on the issue, Ms. Cleveland, 
of Dr. Ivins being a rogue scientist, what did we learn that we 
could use to prevent that kind of action in the future?
    Ms. Cleveland. Senator, we did not look specifically at the 
Ivins case, I think in part because the Congress has determined 
that another commission will take a look at it. We did not 
choose to look backwards in terms of specific events. But I 
think what we established in looking at management of labs and 
anthrax in general as a threat, I think we have come to terms 
with the fact that there needs to be improved management and 
oversight of the labs. There needs to be some kind of 
regulatory body that has specific responsibility for oversight 
and establishing security and safety procedures. But we did not 
look specifically at the Ivins case.
    Senator Nelson. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Nelson. 
Senator Thune.

 OPENING STATEMENT OF SENATOR JOHN THUNE, A U.S. SENATOR FROM 
                   THE STATE OF SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, and I, too, want to 
echo the words of my colleagues and thank you all for lending 
your experience and your skill to this very important mission. 
Both of you, Senators, and Ms. Cleveland as well are people who 
are very accomplished, and I know from personal experience, 
having served with Senator Talent on the Armed Services 
Committee, the knowledge you have of these issues and the 
passion you have for making sure that we are taking the steps 
that are necessary to keep our country safe in what is an 
increasingly dangerous world. So thank you all for your 
efforts, and also I note that I suspect that when you got into 
this, you did not realize that you would be putting yourselves 
in peril on your trip to Pakistan. That had to have been a 
reminder of the dangerous world in which we live. And I think 
that your principal finding that we would experience some sort 
of an attack in the next 5 years came as a shock to a lot of 
people, but also a reminder to us how important it is that we 
double down in our efforts to make sure that we prevent that 
sort of thing from happening.
    I want to follow up on the question that Senator Nelson 
raised about Pakistan because your findings did, I think, talk 
about the use of soft power initiatives. And, of course, as you 
know, a number of things have happened there recently, which 
have drawn into question their ability to carry out those types 
of initiatives. I am just wondering in terms of current events 
in Pakistan that have occurred subsequent to the submission of 
your report, do you think that any of the recommendations may 
need to be modified to take into account the likelihood that we 
may have to deal with Pakistan in terms of it being a failed 
state? There is growing belief and consensus that could be the 
case. So do you believe that Pakistan is on the brink of 
becoming a failed state?
    Senator Graham. Well, if I could first comment on your 
introductory statement and thank you for your generous remarks, 
we do not mean to be the Commission of doom and gloom, because 
as we stated, this risk assessment is on the assumption that we 
do nothing over the next 5 years. There are many things that 
are available to us which will reduce that probability, more 
likely than not that it will occur. The challenge is going to 
be do we have the will and the wisdom to do so? That will be 
something for historians to recount.
    As to Pakistan, I remember when President Kennedy made his 
announcement that we were going to go to the moon in this 
decade and put an American on the moon and bring them safely 
back, he said, ``We do this not because it is easy but because 
it is hard. It will test our capabilities.'' Well, I would 
apply the same thing to the whole issue of bleeding extremism 
out of the world, beginning with Pakistan. It is hard, and 
probably nothing of the scale that we think is required has 
ever been attempted before. So we think it is going to 
challenge the imagination and the creativity of the United 
States and its leadership as to what are effective strategies 
and then it will require the will to implement them.
    I will just state one thing that gives me some 
encouragement. About 60 years ago then-Vice President Nixon had 
a 12-stop visit to Latin America planned. The first two stops 
he met insults, vulgarity, and tomatoes. And after two stops, 
he terminated the trip and came back home. That probably was 
the nadir of U.S. relations in Latin America. Although there 
are still rough spots, such as Mr. Chavez in Venezuela, the 
general relationship between the United States and our Latin 
American neighbors is dramatically improved. I think that a 
fundamental reason for that is that over a period of half a 
century, thousands of young people from the United States went 
to Latin America, and they learned something about that region 
not by theory but by actual personal experience. And, 
similarly, thousands of young people came from Latin America 
particularly to study at our colleges and universities, and 
they have now returned home to occupy leadership positions.
    That may or may not be a model that has some application 
here, but it does say that a hard problem, improving U.S. 
relations in the hemisphere, with creativity and commitment can 
be, if not solved, substantially mitigated. And I think we have 
the same potential in Pakistan and in the Muslim world.
    Senator Talent. As you know, Senator, the definition of a 
failed state is difficult. People argue over what is and what 
is not. There are certain elements that I am concerned 
personally--I do not know if the Commission said anything about 
this--are present, the instability within certain aspects of 
their territory, the fact that, as Senator Graham was 
mentioning, the government does not entirely control the 
government. And the attack on Mumbai does highlight all of 
that.
    I do not know how useful it is, though, to conclude they 
are a failed state. I think that it presents some of the risks 
of that. And this is why we think this is a really good place 
to begin applying both the traditional power because we 
recommend continuing to be very active in reducing the safe 
havens, and then also the smart power or soft power.
    And I want to echo something Senator Graham said. We ought 
to be saying this to the public. This is hard. I mean, this new 
President faces a really difficult task, just like the old 
President did. And I do not want the public to think that there 
is some silver bullet out there and if everybody up here was 
not dumb, we would have found it and shot it a long time ago. I 
mean, this is hard. These people are a very formidable enemy, 
and they get the strategy of this. And Pakistan is going to be 
very difficult. But as Senator Graham said, we just think it 
has to be taken on.
    Senator Thune. Just one more question, if I might, Mr. 
Chairman.
    Chairman Lieberman. Go right ahead.
    Senator Thune. That has to do with the particular attention 
that the report made regarding biological weapons threats. I 
think, too, in terms of those being more likely to be 
attainable, it does not seem to translate into as significant a 
threat as the threat of a nuclear strike or, for that matter, 
some of the conventional weapon strikes. The attack in Mumbai 
managed to kill an awful lot of people using conventional 
weapons, firearms, explosives, more so than the anthrax attacks 
that we experienced here back in 2001.
    You are aware from your experience with this institution 
some of the constraints that we have to deal with in terms of 
finite resources and we have to make some very hard choices 
when it comes to allocating homeland security resources. So in 
light of the historical record with bioterrorism, should we be 
focusing more funding on the biological threat than we already 
do when the evidence in terms of the lethality of some of these 
conventional attacks have been far more effective and when we 
have far more to fear, obviously, from a nuclear strike?
    Senator Talent. That is a fair question. I would say yes, I 
think you do need to invest the resources, which fortunately--I 
do not think it is beyond the ability or the capacity of the 
government to come up with that. Here is a scenario that is 
very worrisome. The threshold for weaponizing a biological 
agent is lower than the threshold for weaponizing nuclear 
material. Now, they have the sophistication to do that, too. 
But it is lower. Once you isolate the pathogen, it is easier to 
get large enough amounts of it to be able to do more than one 
weapon. The concern I really have is, they go to the top of the 
Sears Tower in Chicago--and I will just say Chicago but it 
could be any densely populated area. And they release anthrax, 
botulism, or some new agent. You do not even know you have been 
attacked until people start going to the hospital 2 or 3 days 
later. And by that time, of course, if you were exposed with 
the initial one--you do not know where the footprint is going 
to be, the wind and the rest of it. And by that time it is too 
late to get the ciprofloxacin out, if it is anthrax. So the 
initial attack may kill thousands of people, and what is to 
keep them from going up in a different building in the same 
city 3 weeks later and releasing another one? And if you hit an 
American city like that three or four times, there is a point 
where you may kill the city. And if they have the demonstrated 
capability to do that, what does our government do? Do you 
continue to fight against them if they have--we are not saying 
this is going to happen. But while we looked at this on 
biological weapons, nuclear is harder to weaponize, and if they 
get it, it is harder for them to get enough material to do more 
than one bomb. I mean, they could again, but it is a little 
harder.
    So we are not at all downgrading the nuclear threat, and 
the attack--a nuclear device that was properly put together 
probably would have a bigger initial impact than a biological 
one. But for those reasons, I think it is a fair statement of 
why we highlighted biological and why we think you should also.
    Ms. Cleveland. I think the Commission draws a distinction 
between the mass casualties that would be a consequence of a 
nuclear event versus the mass consequence of a potential 
biological event. It would not take very much in terms of 
material to create panic or the economic dislocation we 
experienced in the anthrax attack, where there are estimates as 
high as $6 billion in terms of economic consequence, and severe 
psychological and social consequence as well. So I think you 
are right to say the bigger event would be nuclear, but there 
is consequence versus casualty.
    I think the Administration has invested heavily on the 
question of biodefense and on assuring that response to an 
event, whether it is biological or nuclear, is robust. I think 
what we have tried to focus on is how do you prevent it from 
happening in the first instance, and I am not sure that is as 
much an investment of resources as it is intellectual and 
policy issues. I think that these committees could have a huge 
impact in terms of preventing with relatively little in terms 
of financial resources involved.
    Senator Graham. Without denigrating what has been said 
about the importance of this investment for the specific 
purpose of avoiding a biological attack, it is also true that 
many of the areas of investment to avoid a biological attack or 
reduce its severity serve other purposes. As an example, we 
learned with Severe Acute Respiratory Syndrome (SARS) that a 
disease that breaks out in one distant part of today's flat 
world quickly moves across national borders. So we have an 
interest here in the United States and globally, if there is an 
outbreak, whether its origin is terrorism or nature, that we 
know that it has happened as soon as possible so that we can 
try to put a fence around it to keep it from spreading to our 
country.
    One of our major recommendations is we need to increase the 
surveillance capabilities to know that there is something 
beyond ordinary influenza happening out there so that we can 
respond quickly, whether it is a benign or a violent attack and 
confine its consequences and its lethality.
    Ms. Cleveland. Senator, there is one other point Senator 
Graham raised early on in our review, and I am not sure that 
any of us have emphasized it sufficiently. Part of prevention 
is blunting a terrorist's presumptions about success. And so to 
the extent that we have good consequence management in place, 
which I think we concurred we do, and to the extent that we 
engage the citizens and the Congress in conveying that we have 
effective consequence management, that has the potential to 
blunt a terrorist's assumptions about success. And that is key 
to prevention.
    Senator Thune. Thank you. Mr. Chairman, I appreciate your 
indulgence on the time.
    Chairman Lieberman. Not at all. Thank you.
    Senator Thune. I thank you all very much for your continued 
service to our country.
    Chairman Lieberman. Thanks, Senator Thune. Important 
questions. If the three of you have time, I have a few more 
questions. I do not know whether my colleagues do, but just do 
one more brief round.
    The first thing I want to say in regard to Pakistan, having 
just come back from there, if there is any piece of 
encouragement, it is that every time the Pakistani people get 
to vote, they vote for the moderate candidates and against the 
extremists. So it is not an inherently extremist country. 
Nonetheless, it is obviously under siege from a minority who 
are extreme and terrorists, and, unfortunately, there continues 
to be evidence that some parts of the government, particularly 
the intelligence service, have contacts--and perhaps more than 
that--with different terrorist groups. And that is the 
challenge.
    So I think your recommendation that we really focus on the 
soft power but really on a long-term plan of both civil and 
military soft power or hard power aid and partnership with 
Pakistan is key. Obviously, we have developed an 
extraordinarily important bilateral relationship with India. It 
is really one of the foundations of our foreign policy. And 
both our Indian allies and we have an interest, I think, in 
that long-term plan and partnership with both Pakistan and 
Afghanistan.
    The second thing I want to say by way of some reassurance 
to the public--because we are talking about nightmare scenarios 
here, and we have to do that--is that I believe that the 
intelligence reforms we have adopted over the last several 
years can and hopefully will act as a form of prevention, too, 
in breaking plots to carry out a biological attack on the 
United States.
    Let me go to a few questions quickly. We know from our 
attempt to keep nuclear devices out of the hands of terrorists 
that the source of those often is, of course, nations that have 
nuclear capacity. So we have the A.Q. Khan case from Pakistan. 
We have the North Koreans proliferating. In your report, you 
mention that no nation admits to having a biological weapons 
development program, but six nations are suspected of having 
one. What are those six nations, to the best of your knowledge?
    Senator Graham. This is the final exam.
    Senator Talent. Naturally, we could answer that, but since 
it is Ms. Cleveland's area, we thought we----
    Ms. Cleveland. It is always the hardest questions that come 
last.
    Chairman Lieberman. Well, I must admit, I think it said 
``about a half dozen,'' so I will give you a little leeway 
there if you cannot reach six.
    Ms. Cleveland. We know that several important countries 
remain outside the Biological Weapons Convention, including 
Egypt, Israel and Syria. The U.S. State Department has also 
expressed concern that some parties to the treaty, such as 
Russia, China, Iran and North Korea, may be pursing offensive 
biological weapons programs in secret.
    Chairman Lieberman. Has there been any international 
attempt to try to stop biological weapons proliferation from 
those nations?
    Ms. Cleveland. I would not want to get into a discussion of 
how that might be confirmed. I think that the issue we face 
here--and we heard this when we were in Russia--is that there 
is enormous sensitivity about protection of medical and science 
equities. And so I think the short answer is no, there has not 
been a coordinated effort to secure multi-party or global 
adherence to the Biological Weapons Convention.
    Chairman Lieberman. I have another question regarding 
international relations. Is there any other country, for 
instance, in Europe, that is doing a better or a different job 
than we are at overseeing biological laboratories to prevent 
the weaponization of biological pathogens?
    Senator Graham. I think the United States is today the 
standard of the world. What we are saying is that our standard 
needs to be taken up a notch, and then we can use our standard 
as the inspiration for other countries or as the example of 
what can be done.
    So our domestic recommendations not only will help us here 
at home, they will also increase our moral suasion with other 
countries.
    Chairman Lieberman. Thank you for that.
    Let me ask a final question, which goes to our governmental 
affairs jurisdiction as well as homeland security, because you 
have called for the Homeland Security Council and the National 
Security Council to be merged. And this is an idea that has 
been talked about, so your recommendation is significant.
    Obviously, there are a number of the risks involved in WMD 
prevention that bridge the realms of homeland and national 
security. So I wanted to ask you to talk a little bit more 
about this. The first concern is will the homeland security 
functions of the Homeland Security Council be lost if there is 
a merger into the National Security Council?
    Senator Graham. That was not our intention or belief.
    Chairman Lieberman. Right.
    Senator Graham. In fact, we think like in so many things in 
life, if you have multiple entities responsible, then nobody 
feels the ultimate accountability for results--we think that 
there is some of that--and then just the bureaucratic demands 
of working across two agencies which have such similar 
responsibility.
    Our recommendation is that the National Security Council be 
the survivor in that merger and that the National Security 
Council possibly have within it a core of individuals led by a 
person who would be particularly focused within that context on 
the subset of issues that could be described as homeland 
security.
    Chairman Lieberman. And that person might, for instance, be 
a Deputy National Security Adviser. Is that what you are 
thinking about?
    Senator Graham. Yes, and this is also in the context that 
we are also calling for there to be a senior adviser or 
coordinator for the President who would focus even more 
specifically on this issue of weapons of mass destruction and 
the interface with proliferation.
    Chairman Lieberman. That was my next question, which is, if 
we are going to create a position to oversee WMD prevention, 
why not have it be part of the National Security Council as 
opposed to being another special adviser to the President?
    Senator Graham. Well, my feeling is that the only strength 
that this position will have will be the degree to which the 
President of the United States resides confidence in the 
position. And so with that as a starting premise, we felt that 
the President should decide how he would like to organize his 
executive team in order to secure a position that he will have 
that kind of respect and confidence in.
    One thing that came out during the course of our hearings 
which concerned a number of us, including myself, was that 
there have been a number of instances over the last 20 or 30 
years where on one side of the argument was 
counterproliferation and on the other side was a geopolitical 
or economic objective. In almost all of those stand-offs, 
proliferation has lost, and part of the reason is that you have 
a Secretary of State, Secretary of the Treasury, or Secretary 
of Commerce arguing for the geopolitical and the economic 
reasons and someone who is down in the bureaucratic ranks 
defending the counterproliferation argument. So we think that 
this position needs to be one that is sufficiently attractive 
that it will draw someone of gravitas to it who can make the 
case against proliferation.
    Now, it may be that for good and sufficient reasons, we are 
willing to accept an increase in our vulnerability to 
proliferation in order to achieve some economic or geopolitical 
objective. I think there has not been a sufficient exposition 
of what those consequences were when many of these decisions 
were made in the past.
    Chairman Lieberman. I agree. Very well said. Senator Akaka, 
do you have any more questions?
    Senator Akaka. Yes. Mr. Chairman, let me ask a final 
question. In September, I held a hearing that focused on public 
diplomacy reforms. A State Department witness testified that 
the current national strategy for public diplomacy was useful, 
and that there are three public diplomacy priorities. They are: 
Expand education and exchange programs, modernize 
communications, and promote the diplomacy of deeds.
    How would your recommended new public diplomacy strategy 
and its implementation differ from the strategy that is 
currently in place?
    Senator Talent. I think it is an attempt to make that kind 
of thinking more effective, Senator, is what I would say. There 
has been a fair amount of activity in this regard within the 
State Department and some of the other civilian agencies. But 
they are much like where the intelligence community was before 
you all passed the bill. They are not looking at it 
strategically saying what is the purpose of these capabilities.
    I was going to say in response to one of the Chairman's 
questions because he was talking about the fact that the vast 
majority of the people of Pakistan do not want these extremists 
to be controlling things. Now, if we all looked at that as we 
might look at a political problem in a campaign--I mean, we had 
a whole set of voters who we knew really agreed with us. But 
how do we get them to join us in our efforts? I think if we can 
create within the State Department and these agencies that 
targeted thinking, what is the point of the public diplomacy? 
Well, in Pakistan it is to get them to oppose the terrorists 
and more actively support the civilized community and what are 
we trying to do and what capabilities do we need to achieve 
that, which is going to include everything you talked about, 
but done in a more intentional way. And we think the kind of 
organic reform that you all achieved in the intelligence 
community is what we need there. That is what is so significant 
about this progress. That bill you passed--and this Committee 
is responsible for it--has actually reversed the momentum of 
the culture within a set of agencies within the government of 
the United States, which a lot of people thought could not be 
done.
    So it is a long answer, Senator, and one of the reasons we 
did not get into specifics is there is a commission report that 
has actually just come out, and it is called ``Forging the New 
Shield,'' by the Project on National Security Reform, and they 
talk a lot about the integrators that they think are going to 
be necessary to accomplish what you are talking about.
    Senator Akaka. Well, I have other questions, but I may 
submit them for the record.
    Chairman Lieberman. Thanks very much, Senator Akaka.
    I want to thank the witnesses and, in absentia, Congressman 
Roemer. It has been a very important hearing.
    Senator Collins and I talked during the hearing, and we 
decided this is so urgent, we are going to go ahead and try to 
convert a fair amount of your report, particularly the parts 
about increasing oversight of the high-containment biological 
laboratories, into legislation. In other words, rather than 
going through a lengthy process of consulting with 
stakeholders, we think it is a better idea to try to force the 
issue by drafting legislation based on your recommendations and 
then going through the hearing process as soon in the next 
Congress as possible. So you have certainly had that effect.
    You may know that yesterday Senators Kennedy and Burr 
initiated a letter based on one of the recommendations in your 
report that I think more than 15 of our colleagues, including 
Senator Collins and myself, signed and sent to the bipartisan 
Senate leadership urging funding of $900 million in public 
health and weapons of mass destruction medical countermeasures, 
which is one of the things you called for. So you have done a 
great job really remarkably quickly for a commission, for 
Washington, and I think we owe it to you to respond in light of 
the urgency of the subject matter and your recommendations and 
conclusion with similar urgency. So thank you very much.
    We are going to keep the record of the hearing open for 15 
days if any of you want to submit additional testimony or our 
colleagues want to submit questions to you. I cannot resist 
saying to you, Senators Graham and Talent, that your presence 
and the high quality of your work here reminds us once again 
that there is life after the Senate. This is very reassuring. 
[Laughter.]
    With that, the hearing is adjourned.
    Senator Graham. Thank you very much.
    [Whereupon, at 12:42 p.m., the Committee was adjourned.


                            A P P E N D I X

                              ----------                              


            PREPARED OPENING STATEMENT OF SENATOR VOINOVICH

    I commend the Commission's efforts and find the recommendations 
right on target and timely. The Commission's report serves as a good 
reminder that the United States must bolster efforts to develop and 
implement policies and projects to combat the threat of a biological or 
nuclear attack. Our vigilance and resolve must remain strong in the 
face of these enemies, and we will prevail.
    Let me quote one of the report's conclusions which resonated with 
me: ``There are serious uncertainties about how the government will 
replace individuals with highly specialized skills as they retire, 
especially in light of the competition for these skills from the 
private sector. No concerted effort has yet been made to recruit the 
next generation workforce--but without that workforce, our long-term 
national security is threatened.''
    The report cites Defense Secretary Gates' concern that, ``Half of 
our nuclear lab scientists are over 50 years old, and many of those 
under 50 have had limited or no involvement in the design and 
development of a nuclear weapon. . . . By some estimates, within the 
next several years, three-quarters of the workforce in nuclear 
engineering and at the national laboratories will reach retirement 
age.''
    As many of my colleagues on this Committee know that this issue has 
been something that I have been concerned about and have worked hard to 
find ways to address this issue. My continued work in enacting positive 
human capital reform in our intelligence and homeland security agencies 
stems back to March 2001, when I chaired a Subcommittee hearing 
entitled, ``National Security Implications of the Human Capital 
Crisis.'' During the hearing, former Defense Secretary Schlesinger, a 
member of the U.S. Commission on National Security in the 21st Century, 
testified ``We must take immediate action in the personnel area to 
ensure that the United States can meet future challenges . . . fixing 
the personnel problem is a precondition for fixing virtually everything 
else that needs repair in the institutional edifice of U.S. national 
security policy.'' Similarly, the 9/11 Commission concluded, ``We know 
that the quality of the people is more important than the quality of 
the wiring diagrams. Good people can overcome bad structures. They 
should not have to.'' The report from the Commission on the Prevention 
of Weapons of Mass Destruction Proliferation and Terrorism serves as a 
good reminder that the Federal Government's most valuable resource is 
the men and women it employs.
    Senator Akaka and I have enacted a number of flexibilities to 
provide the government with the tools necessary to put the right people 
in the right place at the right time. However, agencies seem to be 
struggling to produce the strategic human capital plans necessary to 
make appropriate use of existing flexibilities and meet their short and 
long term workforce needs.
    As Chairman and Ranking on the EPW Clean Air and Nuclear Safety 
Subcommittee, Senator Carper and I learned through our oversight 
hearings that the Nuclear Regulatory Commission (NRC) was facing the 
very same problems. One of the things we did was to include three 
pieces of legislation as part of the Energy Policy Act of 2005, 
authorizing the NRC to take innovative steps to attract both young 
talent and retired experts to address the agency's anticipated 
shortages in technical capabilities.
    Senator Carper and I also held a nuclear energy roundtable with 
representatives from organized labor, industry, academia, professional 
societies, and government agencies. The roundtable was very productive 
as it raised an awareness of the impending shortage of the skilled 
workers needed to support the nuclear renaissance. Everyone at the 
roundtable agreed that the construction of more than 30 new reactors 
over the next 15 to 20 years could present an enormous challenge for 
the nuclear industry.
    The roundtable resulted in a number of recommendations such as: (1) 
use recent retirees as instructors, mentors, and advisors; (2) provide 
more flexibility to a younger generation of workers; (3) invest in 
training--the philosophy of ``just-in-time'' inventory does not work 
with human capital; (4) identify all existing public and private-sector 
training programs, and then leverage and fund those that are successful 
(e.g., Helmets to Hardhats and the Building Construction Trade 
Department's training program); and (5) provide adequate and consistent 
funding in science and technology for universities and colleges.
    The recently enacted America Competes Act establishes a solid 
policy framework for addressing the science, technology, engineering, 
and math workforce challenges identified in the National Academies' 
report, Rising Above the Gathering Storm: Energizing and Employing 
America for a Brighter Economic Future. But we must adequately fund 
these programs to make them work.
    When Senator Bingaman and I have to fight the Administration each 
year to restore Federal funding to support nuclear and engineering 
programs at universities across the country, we are not sending the 
consistent message.
    I also took to heart the Commission's views on Congress's 
unwillingness to reform itself in accordance with the 9/11 Commission's 
recommendation to provide better and more streamlined oversight of the 
Department of Homeland Security. I remember when the Sense of the 
Senate that was accepted during this Committee's markup of the 9/11 
Commission bill, calling on the Senate to reorganize itself, was 
removed from the bill before floor consideration.
    I continue to believe that Congress could do a better job if we 
were willing to set aside the turf battles and reorganize our own 
Committee structure to provide more efficient oversight over homeland 
security. I plan to reintroduce the legislation in the 111th Congress 
and hope my colleagues will work with me to push forward this much 
needed change.

[GRAPHIC] [TIFF OMITTED] T5990.001

[GRAPHIC] [TIFF OMITTED] T5990.002

[GRAPHIC] [TIFF OMITTED] T5990.003

[GRAPHIC] [TIFF OMITTED] T5990.004

[GRAPHIC] [TIFF OMITTED] T5990.005

[GRAPHIC] [TIFF OMITTED] T5990.006

[GRAPHIC] [TIFF OMITTED] T5990.007

[GRAPHIC] [TIFF OMITTED] T5990.008

[GRAPHIC] [TIFF OMITTED] T5990.009

[GRAPHIC] [TIFF OMITTED] T5990.010

[GRAPHIC] [TIFF OMITTED] T5990.011

[GRAPHIC] [TIFF OMITTED] T5990.012

[GRAPHIC] [TIFF OMITTED] T5990.013

[GRAPHIC] [TIFF OMITTED] T5990.014

[GRAPHIC] [TIFF OMITTED] T5990.015

[GRAPHIC] [TIFF OMITTED] T5990.016

[GRAPHIC] [TIFF OMITTED] T5990.017

[GRAPHIC] [TIFF OMITTED] T5990.018

[GRAPHIC] [TIFF OMITTED] T5990.019

[GRAPHIC] [TIFF OMITTED] T5990.020

[GRAPHIC] [TIFF OMITTED] T5990.021

[GRAPHIC] [TIFF OMITTED] T5990.022

[GRAPHIC] [TIFF OMITTED] T5990.023

[GRAPHIC] [TIFF OMITTED] T5990.024

[GRAPHIC] [TIFF OMITTED] T5990.025

[GRAPHIC] [TIFF OMITTED] T5990.026

[GRAPHIC] [TIFF OMITTED] T5990.027

[GRAPHIC] [TIFF OMITTED] T5990.028

[GRAPHIC] [TIFF OMITTED] T5990.029

[GRAPHIC] [TIFF OMITTED] T5990.030

[GRAPHIC] [TIFF OMITTED] T5990.031

[GRAPHIC] [TIFF OMITTED] T5990.032

[GRAPHIC] [TIFF OMITTED] T5990.033

[GRAPHIC] [TIFF OMITTED] T5990.034

[GRAPHIC] [TIFF OMITTED] T5990.035

[GRAPHIC] [TIFF OMITTED] T5990.036

[GRAPHIC] [TIFF OMITTED] T5990.037

[GRAPHIC] [TIFF OMITTED] T5990.038

[GRAPHIC] [TIFF OMITTED] T5990.039

[GRAPHIC] [TIFF OMITTED] T5990.040

[GRAPHIC] [TIFF OMITTED] T5990.041

[GRAPHIC] [TIFF OMITTED] T5990.042

[GRAPHIC] [TIFF OMITTED] T5990.043

[GRAPHIC] [TIFF OMITTED] T5990.044

[GRAPHIC] [TIFF OMITTED] T5990.045

[GRAPHIC] [TIFF OMITTED] T5990.046

[GRAPHIC] [TIFF OMITTED] T5990.047

[GRAPHIC] [TIFF OMITTED] T5990.048

[GRAPHIC] [TIFF OMITTED] T5990.049

[GRAPHIC] [TIFF OMITTED] T5990.050

[GRAPHIC] [TIFF OMITTED] T5990.051

[GRAPHIC] [TIFF OMITTED] T5990.052

[GRAPHIC] [TIFF OMITTED] T5990.053

[GRAPHIC] [TIFF OMITTED] T5990.054

[GRAPHIC] [TIFF OMITTED] T5990.055

[GRAPHIC] [TIFF OMITTED] T5990.056

[GRAPHIC] [TIFF OMITTED] T5990.057

[GRAPHIC] [TIFF OMITTED] T5990.058

[GRAPHIC] [TIFF OMITTED] T5990.059

[GRAPHIC] [TIFF OMITTED] T5990.060

[GRAPHIC] [TIFF OMITTED] T5990.061

[GRAPHIC] [TIFF OMITTED] T5990.062

[GRAPHIC] [TIFF OMITTED] T5990.063

[GRAPHIC] [TIFF OMITTED] T5990.064

[GRAPHIC] [TIFF OMITTED] T5990.065

[GRAPHIC] [TIFF OMITTED] T5990.066

[GRAPHIC] [TIFF OMITTED] T5990.067

[GRAPHIC] [TIFF OMITTED] T5990.068

[GRAPHIC] [TIFF OMITTED] T5990.069

[GRAPHIC] [TIFF OMITTED] T5990.070

[GRAPHIC] [TIFF OMITTED] T5990.071

[GRAPHIC] [TIFF OMITTED] T5990.072

[GRAPHIC] [TIFF OMITTED] T5990.073

[GRAPHIC] [TIFF OMITTED] T5990.074

[GRAPHIC] [TIFF OMITTED] T5990.075

[GRAPHIC] [TIFF OMITTED] T5990.076

[GRAPHIC] [TIFF OMITTED] T5990.077

[GRAPHIC] [TIFF OMITTED] T5990.078

[GRAPHIC] [TIFF OMITTED] T5990.079

[GRAPHIC] [TIFF OMITTED] T5990.080

[GRAPHIC] [TIFF OMITTED] T5990.081

[GRAPHIC] [TIFF OMITTED] T5990.082

[GRAPHIC] [TIFF OMITTED] T5990.083

[GRAPHIC] [TIFF OMITTED] T5990.084

[GRAPHIC] [TIFF OMITTED] T5990.085

[GRAPHIC] [TIFF OMITTED] T5990.086

[GRAPHIC] [TIFF OMITTED] T5990.087

[GRAPHIC] [TIFF OMITTED] T5990.088

[GRAPHIC] [TIFF OMITTED] T5990.089

[GRAPHIC] [TIFF OMITTED] T5990.090

[GRAPHIC] [TIFF OMITTED] T5990.091

[GRAPHIC] [TIFF OMITTED] T5990.092

[GRAPHIC] [TIFF OMITTED] T5990.093

[GRAPHIC] [TIFF OMITTED] T5990.094

[GRAPHIC] [TIFF OMITTED] T5990.095

[GRAPHIC] [TIFF OMITTED] T5990.096

[GRAPHIC] [TIFF OMITTED] T5990.097

[GRAPHIC] [TIFF OMITTED] T5990.098

[GRAPHIC] [TIFF OMITTED] T5990.099

[GRAPHIC] [TIFF OMITTED] T5990.100

[GRAPHIC] [TIFF OMITTED] T5990.101

[GRAPHIC] [TIFF OMITTED] T5990.102

[GRAPHIC] [TIFF OMITTED] T5990.103

[GRAPHIC] [TIFF OMITTED] T5990.104

[GRAPHIC] [TIFF OMITTED] T5990.105

[GRAPHIC] [TIFF OMITTED] T5990.106

[GRAPHIC] [TIFF OMITTED] T5990.107

[GRAPHIC] [TIFF OMITTED] T5990.108

[GRAPHIC] [TIFF OMITTED] T5990.109

[GRAPHIC] [TIFF OMITTED] T5990.110

[GRAPHIC] [TIFF OMITTED] T5990.111

[GRAPHIC] [TIFF OMITTED] T5990.112

[GRAPHIC] [TIFF OMITTED] T5990.113

[GRAPHIC] [TIFF OMITTED] T5990.114

[GRAPHIC] [TIFF OMITTED] T5990.115

[GRAPHIC] [TIFF OMITTED] T5990.116

[GRAPHIC] [TIFF OMITTED] T5990.117

[GRAPHIC] [TIFF OMITTED] T5990.118

[GRAPHIC] [TIFF OMITTED] T5990.119

[GRAPHIC] [TIFF OMITTED] T5990.120

[GRAPHIC] [TIFF OMITTED] T5990.121

[GRAPHIC] [TIFF OMITTED] T5990.122

[GRAPHIC] [TIFF OMITTED] T5990.123

[GRAPHIC] [TIFF OMITTED] T5990.124

[GRAPHIC] [TIFF OMITTED] T5990.125

[GRAPHIC] [TIFF OMITTED] T5990.126

[GRAPHIC] [TIFF OMITTED] T5990.127

[GRAPHIC] [TIFF OMITTED] T5990.128

[GRAPHIC] [TIFF OMITTED] T5990.129

[GRAPHIC] [TIFF OMITTED] T5990.130

[GRAPHIC] [TIFF OMITTED] T5990.131

[GRAPHIC] [TIFF OMITTED] T5990.132

[GRAPHIC] [TIFF OMITTED] T5990.133

[GRAPHIC] [TIFF OMITTED] T5990.134

[GRAPHIC] [TIFF OMITTED] T5990.135

[GRAPHIC] [TIFF OMITTED] T5990.136

[GRAPHIC] [TIFF OMITTED] T5990.137

[GRAPHIC] [TIFF OMITTED] T5990.138

[GRAPHIC] [TIFF OMITTED] T5990.139

[GRAPHIC] [TIFF OMITTED] T5990.140

[GRAPHIC] [TIFF OMITTED] T5990.141

[GRAPHIC] [TIFF OMITTED] T5990.142

[GRAPHIC] [TIFF OMITTED] T5990.143

[GRAPHIC] [TIFF OMITTED] T5990.144

[GRAPHIC] [TIFF OMITTED] T5990.145

[GRAPHIC] [TIFF OMITTED] T5990.146

[GRAPHIC] [TIFF OMITTED] T5990.147

[GRAPHIC] [TIFF OMITTED] T5990.148

[GRAPHIC] [TIFF OMITTED] T5990.149

[GRAPHIC] [TIFF OMITTED] T5990.150

[GRAPHIC] [TIFF OMITTED] T5990.151

[GRAPHIC] [TIFF OMITTED] T5990.152

[GRAPHIC] [TIFF OMITTED] T5990.153

[GRAPHIC] [TIFF OMITTED] T5990.154

[GRAPHIC] [TIFF OMITTED] T5990.155

[GRAPHIC] [TIFF OMITTED] T5990.156

[GRAPHIC] [TIFF OMITTED] T5990.157

[GRAPHIC] [TIFF OMITTED] T5990.158

[GRAPHIC] [TIFF OMITTED] T5990.159

[GRAPHIC] [TIFF OMITTED] T5990.160

[GRAPHIC] [TIFF OMITTED] T5990.161

[GRAPHIC] [TIFF OMITTED] T5990.162

[GRAPHIC] [TIFF OMITTED] T5990.163

[GRAPHIC] [TIFF OMITTED] T5990.164

[GRAPHIC] [TIFF OMITTED] T5990.165

[GRAPHIC] [TIFF OMITTED] T5990.166

[GRAPHIC] [TIFF OMITTED] T5990.167

[GRAPHIC] [TIFF OMITTED] T5990.168

                                 <all>

</pre></body></html>
